                   
         
         
            Fiscal Year 
         
         
         
               2012 
         
         
         
                     
 
 
         
                     
 
 
 
               Military
 
     
     
            Retirement
     
                  Fund
               Audited
              Financial
                Report



                     
             November 6, 2012
                                                        Table of Contents

Management’s Discussion and Analysis ......................................................................................1 
  Reporting Entity .......................................................................................................................... 1 
  The Fund ..................................................................................................................................... 2 
     General Benefit Information ................................................................................................... 2 
     Non-Disability Retirement from Active Service .................................................................... 3 
     Disability Retirement .............................................................................................................. 5 
     Reserve Retirement ................................................................................................................. 7 
     Survivor Benefits .................................................................................................................... 8 
     Temporary Early Retirement Authority (TERA) .................................................................... 9 
     Cost-of-Living Increase ........................................................................................................ 10 
  Fund Relationships.................................................................................................................... 10 
     Department of Veterans Affairs Benefits ............................................................................. 10 
     Other Federal Service ........................................................................................................... 11 
     Retired Pay to Military Compensation ................................................................................. 11 
     Social Security Benefits ........................................................................................................ 12 
  Significant Changes .................................................................................................................. 12 
     During FY 2012 and FY 2011 .............................................................................................. 12 
     Changes for FY 2013 ............................................................................................................ 13 
  Performance Measures .............................................................................................................. 13 
  Projected Long-Term Health of the Fund ................................................................................. 14 
     U.S. Credit Rating Downgrade ............................................................................................. 14 
     Unified Budget of the Federal Government.......................................................................... 15 
     20-Year Projection ................................................................................................................ 16 
     Expected Problems................................................................................................................ 18 
     Investments ........................................................................................................................... 18 
     Management Oversight ......................................................................................................... 18 
     Anticipated Changes between the Expected and Actual Investment Rate of Return ........... 19 
  Financial Performance Overview ............................................................................................. 20 
     Financial Data ....................................................................................................................... 20 
     Assets .................................................................................................................................... 20 
     Liabilities .............................................................................................................................. 21 
  Management Assurances .......................................................................................................... 22 
  Improper Payments Information Act of 2002 (Public Law No. 107-300) ................................ 23 
  Limitations of the Financial Statements ................................................................................... 24 
DoD Transmittal of Auditors’ Opinion .....................................................................................25 
Independent Auditors’ Report....................................................................................................26 
  Introduction ............................................................................................................................... 26 
  Independent Auditors’ Report on the Financial Statements ..................................................... 26 
  Independent Auditors’ Report on Internal Control over Financial Reporting and on
  Compliance and Other Matters Based Upon the Audit Performed in Accordance with
  Government Auditing Standards............................................................................................... 28 
  Agency Comments .................................................................................................................... 32 



           i   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Principal Statements ....................................................................................................................34 
  Consolidated Balance Sheet ...................................................................................................... 35 
  Consolidated Statements of Net Cost ....................................................................................... 36 
  Consolidated Statements of Changes in Net Position ............................................................... 37 
  Statements of Budgetary Resources.......................................................................................... 38 
DoD Military Retirement Fund Notes to the Principal Statements ........................................39 
  Note 1. Significant Accounting Policies .................................................................................. 39 
  Note 2. Non-Entity Assets ....................................................................................................... 42 
  Note 3. Fund Balance With Treasury (FBWT) ........................................................................ 43 
  Note 4. Investments ................................................................................................................. 44 
  Note 5. Accounts Receivable ................................................................................................... 46 
  Note 6. Liabilities Not Covered By Budgetary Resources ...................................................... 47 
  Note 7. Other Liabilities .......................................................................................................... 47 
  Note 8. Commitments and Contingencies ............................................................................... 48 
  Note 9. Military Retirement Benefit Liabilities ....................................................................... 48 
  Note 10. Disclosures Related to the Statements of Net Cost ................................................... 52 
  Note 11. Disclosures Related to the Statements of Changes in Net Position .......................... 53 
  Note 12. Disclosures Related to the Statements of Budgetary Resources ............................... 53 
  Note 13. Reconciliation of Net Cost of Operations to Budget ................................................ 54 
  Note 14. Earmarked Funds ...................................................................................................... 55 
  Note 15. Other Disclosures ...................................................................................................... 56 
  Note 16. Subsequent Event ...................................................................................................... 57 




          ii   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis


                            Management’s Discussion and Analysis
                        Summary of the Military Retirement System
                         For the Years Ended September 30, 2012 and 2011

Reporting Entity
The reporting entity is the Department of Defense (DoD) Military Retirement Fund (MRF). The
Military Retirement System (MRS) provides benefits for military members’ retirement from
active duty and from the reserves, disability retirement benefits, and survivor benefits. The MRF
accumulates funds to finance, on an actuarial basis, the liabilities of DoD under military
retirement and survivor benefit programs.

Within DoD, the operations of the MRS are jointly overseen by the: (1) Office of the Under
Secretary of Defense (Comptroller) (OUSD(C)), (2) Defense Finance and Accounting Service
(DFAS), and (3) Office of the Under Secretary of Defense for Personnel and Readiness
(OUSD(P&R)). DFAS is responsible for the accounting, investing, payment of benefits, and
reporting of the MRF. The DoD Office of the Actuary (OACT) within OUSD(P&R) calculates
the actuarial liability of the MRF. The Office of Military Personnel Policy within OUSD(P&R)
issues policy related to MRS benefits. While the MRF does not have a specified Chief Financial
Officer (CFO), the OUSD(C) has oversight of the MRF's financial reporting processes.

The Fund was established by Public Law (P.L.) 98-94 (currently Chapter 74 of Title 10, U.S.C.)
starting October 1, 1984. The Fund is overseen by an independent, three-member Secretary of
Defense (SecDef)-appointed DoD Board of Actuaries (‘Board’). The Board is required to review
valuations of the MRS, determine the method of amortizing unfunded liabilities, report annually
to the SecDef, and report to the President and the Congress on the status of the MRF at least once
every four years. OACT provides all technical and administrative support to the Board.

In Fiscal Year (FY) 2012, the MRF paid out approximately $52.5 billion in benefits to military
retirees and survivors. In FY 2011, the MRF paid out approximately $54.86 billion. The
administrative costs of supporting MRF’s activities are not reflected in these financial
statements.

The Fund receives income from three sources: (1) normal cost payments from the Services and
U.S. Treasury; (2) payment from the U.S. Treasury to amortize the unfunded liability; and (3)
investment income.

During FY 2012, the MRF received approximately $21.9 billion in normal cost payments, a
$70.13 billion payment from the U.S. Treasury, and earned approximately $12.5 billion in
investment income, net of premium/discount amortization and accrued inflation compensation.
In comparison, in FY 2011 the MRF received approximately $20.97 billion in normal cost
payments, a $66.35 billion payment from the U.S. Treasury, and earned approximately
$18 billion in investment income, net of premium/discount amortization and accrued inflation
compensation (see the Financial Performance Overview section for an explanation of the
changes).



       1   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis


The Fund
General Benefit Information
The MRS includes members of the Army, Navy, Marine Corps, and Air Force; however, most of
the provisions also apply to retirement systems for uniformed service members of the Coast
Guard (administered by the Department of Homeland Security), the Public Health Service
(administered by the Department of Health and Human Services), and the National Oceanic and
Atmospheric Administration (administered by the Department of Commerce). This report
applies only to members in plans administered by the DoD.

The MRS is a funded, noncontributory, defined benefit plan that includes non-disability retired
pay, disability retired pay, survivor annuity programs, and Combat-Related Special
Compensation. The Service Secretaries may approve immediate non-disability retired pay at any
age with credit of at least 20 years of active duty service. Reserve retirees must be at least 60
years old and have at least 20 qualifying years of service before retired pay commences;
however, in some cases, the age can be less than 60 if the reservist performs certain types of
active service. P.L. 110-181 provides for a 90-day reduction in the reserve retirement age from
age 60 for every 3 months of certain Active Duty service served within a fiscal year for service
after January 28, 2008 (not below age 50). There is no vesting of benefits before non-disabled
retirement.

There are three distinct non-disability benefit formulas related to three populations within the
MRS.

   1) Final Pay: Military personnel who first became members of a uniformed service before
      September 8, 1980, have retired pay equal to final basic pay times a multiplier (final
      basic pay refers to terminal pay of the member). The multiplier is equal to the product of
      2.5% and years of service.
   2) High-3: If the retiree first became a member of a uniformed service on or after September
      8, 1980, the average of the highest 36 months of basic pay is used instead of final basic
      pay.
   3) Career Status Bonus (CSB)/Redux: Those who first became a member of a uniformed
      service on or after August 1, 1986, may choose between a High-3 and CSB/Redux
      retirement. Those who elect CSB/Redux and also have retired pay computed on a base of
      the average of their highest 36 months of basic pay and receive the CSB outlined below;
      however, those who choose to receive the CSB/Redux are subject to a penalty if they
      retire with less than 30 years of service. At age 62, their retired pay is recomputed
      without the penalty. Members make this election during their fifteenth year of service
      and may receive the CSB of $30,000 in either a lump-sum or installments. Those who
      elect CSB/Redux must remain continuously on active duty until they complete 20 years
      of active duty service or forfeit a portion of the $30,000 (exceptions include death and
      disability retirement).

Retired pay and survivor annuity benefits are automatically adjusted annually using the cost-
of-living adjustments (COLAs) to protect the purchasing power of initial retired pay. Members


       2   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis

first entering the uniformed service before August 1, 1986, and those entering on or after that
date who do not elect CSB, have their benefits adjusted by the percentage increase in the
Consumer Price Index (CPI). This is commonly referred to as “full CPI protection,” or “full
COLA”. Benefits for members who entered on or after August 1, 1986, who elect CSB, are
increased by the percentage change in the CPI minus 1% (except when the change in the CPI is
less than or equal to 1%). At age 62, or when the member would have been age 62 (for a
survivor annuity), the benefits are restored to the amount that would have been payable had full
CPI protection been in effect. This restoral is in combination with that described in the previous
paragraph; however, after this restoral, partial indexing (CPI minus 1%) continues for future
retired pay and survivor annuity payments.

The FY 2011 National Defense Authorization Act (NDAA) (P.L. 111-383) required that amounts
of retired pay due to a retired member of the uniformed services shall be paid on the first day of
each month beginning after the month in which the right to such pay accrues. This means that
when the first day of the month falls on a non-business day (weekend / holiday), the pay must be
paid the preceding business day. This legislation did not affect survivor annuitant pay and
Combat-Related Special Compensation. This results in retirees receiving 13 payments in some
fiscal years and 11 payments in others.

Non-Disability Retirement from Active Service
The current retirement system allows for voluntary retirement at any age upon completion of at
least 20 years of service, subject to Service Secretary’s approval. The military retiree
immediately receives retired pay calculated as base pay multiplied by the specified factor. “Base
pay” is equal to terminal basic pay if the retiree first became a member of a uniformed service
before September 8, 1980; for all other members, “base pay” is equal to the average of the
highest 36 months of basic pay. The factor is equal to 2.5% multiplied by the number of years of
service, rounded down to the nearest month.

Members who first entered a Uniformed Service on or after August 1, 1986, who elect
CSB/Redux and who retire with less than 30 years of service, receive a temporary penalty until
they reach the age of 62. This penalty reduces the factor used to compute retired pay by one
percentage point for each full year of service under 30 years. For example, the multiplier for a
20-year retiree would be 40% (50% minus 10%, where 50% equals 20 years multiplied by 2.5%)
of base pay. At age 62, the retired pay is recomputed with the penalty removed. See Tables 1
and 2.




       3   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis


                   MILITARY RETIREMENT SYSTEM PROPERTIES
               (FOR NONDISABILITY RETIREMENT FROM ACTIVE DUTY)

  Benefit                                                                         Career Status Bonus
  System                      Final Pay                   High-3 (HI-3)           (CSB)/Redux
                                                      First became member
                                                      of a uniformed service
                                                      on or after September        First became member of
                      First became member              8, 1980 and prior to       a uniformed service on or
                         of a uniformed                 July 31, 1986, and        after August 1, 1986 and
   Applies to:
                          service before              members joining after        elect to accept the CSB
                       September 8, 1980                July 31, 1986 who           with additional 5-year
                                                      elect not to accept the         service obligation
                                                        CSB at the 15-year
                                                            anniversary
  Retired Pay
                                                      Highest 36 months of         Highest 36 months of
  Computation           Final basic pay rate
                                                         basic pay rate               basic pay rate
    Basis:
                                                                                  2.5% per year of service
                         2.5% per year of                2.5% per year of          less 1% for each year of
   Multiplier:
                             service                         service                  service less than 30
                                                                                      (restored at age 62)
 Cost-of-Living        Full Clerical Worker                                         Full CPI-W minus 1%
  Adjustment             Consumer Price                      Full CPI-W           (one-time catchup at age
  Mechanism:             Index (CPI-W)                                                         62)
                                                                                  $30,000 CSB payable at
                                                                                  15-year anniversary upon
   Lump Sum
                                   --                              --                assumption of 5-year
    Bonus:
                                                                                    obligation to remain on
                                                                                    continuous active duty

                             Table 1. Military Retirement System Properties




     4   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis

                      MILITARY RETIREMENT SYSTEM MULTIPLIERS
                   (FOR NONDISABILITY RETIREMENT FROM ACTIVE DUTY)

                  Years of       Final Pay/HI-3                 CSB/Redux Multiplier
                  Service          Multiplier            Before Age 62     After Age 62
                      20               50%                     40%                 50%
                      21                52.5                    43.5                52.5
                      22                55.0                    47.0                55.0
                      23                57.5                    50.5                57.5
                      24                60.0                    54.0                60.0
                      25                62.5                    57.5                62.5
                      26                65.0                    61.0                65.0
                      27                67.5                    64.5                67.5
                      28                70.0                    68.0                70.0
                      29                72.5                    71.5                72.5
                      30                75.0                    75.0                75.0
                      31                77.5                    77.5                77.5
                      32                80.0                    80.0                80.0
                      33                82.5                    82.5                82.5
                      34                85.0                    85.0                85.0
                      35                87.5                    87.5                87.5
                      36                90.0                    90.0                90.0
                      37                92.5                    92.5                92.5
                      38                95.0                    95.0                95.0
                      39                97.5                    97.5                97.5
                      40               100.0                   100.0               100.0
                      41               102.5                   102.5               102.5
                      42               105.0                   105.0               105.0

                             Table 2. Military Retirement System Multipliers

As of September 30, 2012, there were approximately 1.47 million non-disability retirees from
active duty receiving retired pay. In FY 2012, non-disability retirees were paid approximately
$42.34 billion. (As a result of NDAA 2011, approximately $38.81 billion was paid in FY 2012.)

As of September 30, 2011, there were approximately 1.47 million non-disability retirees from
active duty receiving retired pay. In FY 2011, non-disability retirees were paid approximately
$40.26 billion. (As a result of NDAA 2011, approximately $43.86 billion was paid in FY 2011.)

Disability Retirement
A military member in an active component or on Active Duty for more than 30 days who is
found unfit for duty is entitled to disability retired pay if the disability:


      5   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis


   1)   is incurred while entitled to basic pay;
   2)   is neither the result of the member's intentional misconduct nor willful neglect;
   3)   was not incurred during a period of unauthorized absence; and
   4)   either:
             a. the member has at least 20 years of service; or
             b. the disability is rated at least 30% under the Department of Veterans Affairs (VA)
                Schedule of Rating Disabilities and one of the following conditions is met:
                      i. the disability was not noted at the time of the member’s entrance on
                         Active Duty (unless clear and unmistakable evidence demonstrates that
                         the disability existed before the member’s entrance on Active Duty and
                         was not aggravated by active military service);
                     ii. the disability is the proximate result of performing Active Duty;
                    iii. the disability was incurred in the line of duty in time of war or national
                         emergency; or
                    iv. the disability was incurred in the line of duty after September 14, 1978.

Under certain conditions, members on Active Duty for 30 days or less or on inactive-duty
training also are entitled to disability retired pay for disabilities incurred or aggravated in the line
of duty.

In disability retirement, the member may elect to receive retired pay equal to either:

   1) the accrued non-disability retirement benefit regardless of eligibility to retire; or
   2) base pay multiplied by the rated percent of disability.

Except for members with more than 30 years of service, the benefit cannot exceed 75% of base
pay. The excess of the accrued non-disability retirement benefit (1) over the disability pay (2) is
subject to federal income taxes if the member had service on or before September 24, 1975.
Otherwise, disability retired pay is tax-exempt only for those disabilities that are combat or
hazardous duty related. Base pay is equal to final basic pay if the retiree first became a member
of a uniformed service before September 8, 1980; otherwise, base pay is equal to the average of
the highest 36 months of basic pay.

Members whose disabilities may not be permanent are placed on a temporary-disability retired
list and receive disability retirement pay just as if they were permanently disabled; however, the
member must be physically examined every 18 months for any change in disability, with a final
determination made within five years. The temporary disability pay is calculated like the
permanent disability retired pay, except the payment cannot be less than 50% of base pay.

Members who elected the CSB/Redux retirement option, but who retired for disability, are not
subject to the reduced CSB/Redux retired pay multiplier and are awarded retired pay based on
the disability retirement rules outlined above. However, such members continue to be subject to
the reduced CPI as Career Status Bonus recipients.




        6   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis

NDAA 2008 directed DoD to establish the Physical Disability Board of Review. This review
board has the authority to reexamine certain disabled separations files and, if appropriate,
increase the disability ratings for previously underrated veteran medical conditions.

As of September 30, 2012, there were approximately 96,000 disability retirees receiving retired
pay. In FY 2012, disability retirees were paid approximately $1.39 billion. (As a result of
NDAA 2011, approximately $1.27 billion was paid in FY 2012.)

As of September 30, 2011, there were approximately 95,000 disability retirees receiving retired
pay. In FY 2011, disability retirees were paid approximately $1.36 billion. (As a result of
NDAA 2011, approximately $1.46 billion was paid in FY 2011.)

Reserve Retirement
Members of the reserves may retire after 20 qualifying years of creditable service; however,
reserve retired pay is not payable until age 60 unless the member performs certain types of active
duty or active service specified in the NDAA 2008 (P.L. 110-181). In these cases, the age at
which the reserve retiree may collect is reduced below age 60 by 3 months for every 90 days of
such service performed within a fiscal year. However, the age cannot go below 50, and
eligibility for subsidized retiree health benefits remains at age 60 even if the eligibility age for
receipt of retired pay is reduced.

Reserve retired pay is computed as base pay multiplied by 2.5% for each year of service. If the
Reservist was first a member of a Uniformed Service before September 8, 1980, base pay is
defined as the active duty basic pay in effect for the retiree’s grade and years of service at the
time retired pay begins. If the Reservist first became a member of the armed services on or after
September 8, 1980, base pay is the average basic pay for the member’s grade in the highest 36
months computed as if he/she was on Active Duty for the entire period preceding retired pay
commencement. The years of service are determined by using a point system, where 360 points
convert to one year of service. Typically, one point is awarded for one day of Active Duty
service (e.g. Active Duty training) or one inactive duty training (IDT) drill attendance.
Reservists often perform two IDT periods in one day, thereby receiving 2 retirement points per
day. In addition, 15 points are awarded for completion of one year’s membership in a reserve
component. A creditable year of service is one in which the member earned at least 50 points. A
member generally cannot retire with less than 20 creditable years, although points earned in non-
creditable years are used in the retirement calculation.

Beginning with years of service that include October 30, 2007, non-active duty points are limited
to no more than 130 in any one year. Lower point limitations have applied in the past.

As of September 30, 2012, there were approximately 374,000 reserve retirees receiving retired
pay. In FY 2012, reserve retirees were paid approximately $5.44 billion. (As a result of NDAA
2011, approximately $4.98 billion was paid in FY 2012.)
As of September 30, 2011, there were approximately 365,000 reserve retirees receiving retired
pay. In FY 2011, reserve retirees were paid approximately $5.10 billion. (As a result of NDAA
2011, approximately $5.52 billion was paid in FY 2011.)



       7   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis

Survivor Benefits
Legislation originating in 1953 provided optional survivor benefits, later referred to as the
Retired Servicemen’s Family Protection Plan (RSFPP). The plan proved to be expensive to the
participants and inadequate, since the survivor annuities were never adjusted for inflation and
could not be more than 50% of retired pay. RSFPP was designed to be self-supporting.

On September 21, 1972, RSFPP was replaced by the Survivor Benefit Plan (SBP) for new
retirees. RSFPP still covers those servicemen retired before 1972 who did not convert to the new
plan or who retained RSFPP in conjunction with SBP. RSFPP continues to pay survivor
annuities.

Retired pay is reduced, before taxes, for the member’s cost of SBP. Total SBP costs are shared
by the government and the retiree, so the reductions in retired pay are only a portion of the total
cost of the SBP program.

The SBP survivor annuity is 55% of the member’s base amount. The base amount is elected by
the member, but cannot be less than $300 or more than the member’s full gross monthly retired
pay, with one exception. If the member elects CSB/Redux and is subject to a penalty for service
under 30 years in the calculation of retired pay, the maximum base amount is equal to the full
retired pay without the penalty. However, the annuity for a survivor of a CSB/Redux retiree is
subject to the reduced CPI.

When SBP started in 1972, survivor benefits for those 62 and older were reduced by the
estimated amount of Social Security for which the survivor would be eligible based on the
member’s military pay. In 1985, that reduction formula was changed so all annuitants 62 and
over received a reduced flat rate of 35% of the member’s base amount. Beginning October 1,
2005, the reduced rate at age 62 was phased out in 5% increments. On April 1, 2008, the
survivor benefit reduction at age 62 was fully eliminated and the rate of 55% of the member’s
elected base amount became the standard for all survivors, regardless of age.

Prior to FY 1987, the survivor annuity benefit for a surviving spouse who remarried before age
60 was suspended. In FY 1987, SBP changed to suspend benefits when the remarriage occurred
at the age of 55. If the remarriage ends in divorce or death, the annuity is reinstated.

Members who died on Active Duty, in the line of duty on or after September 11, 2001, are
assumed to have retired with full disability on the day they died and to have elected full SBP
coverage for spouses, former spouses, and/or children. Insurable interest elections may be
applicable in some cases. These benefits have been improved and expanded over the history of
the program.

The surviving spouse (or dependent children, if there is no surviving spouse or if the spouse
subsequently dies) of a reservist who dies in the line of duty while performing IDT service is
entitled to an SBP annuity based on the reservist’s years of service.

SBP annuities generally are reduced by any VA survivor benefits (Dependency and Indemnity
Compensation (DIC)), and all premiums relating to the reductions are returned to the survivor.


       8   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis

The 2008 NDAA enacted, and the Family Smoking Prevention and Tobacco Control Act of 2009
(P.L. 111-31) revised, a temporary Special Survivor Indemnity Allowance (SSIA) that pays a
monthly amount ($50 in FY 2009 grading up to $310 in FY 2017) to survivors with a DIC offset.
The authority for the allowance ends in 2017.

The relationship between SBP and DIC has been the subject of litigation in the U.S. Court of
Appeals. As a result of the “Sharp Case” ruling, the SBP benefit of survivors with entitlement to
both DIC and SBP who remarry after age 57 is not reduced by DIC benefits received.

As with retired pay, SBP annuities and premiums are increased annually with COLAs. These
COLAs are either full or partial CPI increases, depending on the benefit formula covering the
member. If a member who elected the CSB dies before the age of 62, the survivor’s benefit is
subject to partial COLAs and his/her annuity increased, on what would have been the member’s
62nd birthday, to the amount that would have been payable had full COLAs been in effect.
Partial COLAs continue annually thereafter.

For reserve retirees, the retired pay reductions applicable under SBP take effect for survivor
coverage after a Reservist turns 60 (or earlier if they have certain active service) and begins to
receive retired pay. The Reserve Component Survivor Benefit Plan (RC-SBP) provides
annuities to survivors of Reservists who die before age 60 (or earlier if they have certain active
service) provided they attained 20 years of qualified service and elected to participate in the
program (or were within their 90-day election window after receiving a letter confirming 20
years of credible service). However, if the death occurs either on active or inactive duty as
described above, the survivor receives an annuity under SBP. The added cost of RC-SBP is
borne completely by Reservists through deductions from future retired pay.

Beginning October 1, 2008, a “paid-up” provision eliminated the reduction in retired pay for
premiums for SBP, RC-SBP and RSFPP coverage for participants age 70 or older whose retired
pay had been reduced for at least 360 months.

As of September 30, 2012, there were approximately 293,000 survivors of military members
receiving annuity payments. In FY 2012, survivors were paid approximately $3.72 billion. (Not
affected by NDAA 2011.)

As of September 30, 2011, there were approximately 294,000 survivors of military members
receiving annuity payments. In FY 2011, survivors were paid approximately $3.61 billion.
(Not affected by NDAA 2011.)

Temporary Early Retirement Authority (TERA)
The NDAA for FY 1993 (P.L. 102-484) granted temporary authority for the military services to
offer early retirements to members with more than 15 but less than 20 years of service. This
authority expired on September 1, 2002. The retired pay was calculated in the usual way, except
that there was a reduction of 1% for every year below 20 years of service. Part or all of this
reduction can be restored at age 62 if the retired member works in a qualified public service job
during the period from the date of retirement to the date on which the retiree would have
completed 20 years of service. Unlike members who leave military service before 20 years with


       9   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis

Voluntary Separation Incentives or Special Separation Benefits, these early retirees are generally
treated like regular military retirees for the purposes of other retirement benefits.

The NDAA for FY 2012 (P.L. 112-81) reinstated TERA authority through December 31, 2018,
but without the qualified public service provision.

As of September 30, 2012, there were approximately 57,000 TERA retirees receiving retired
pay. In FY 2012, TERA retirees were paid approximately $944 million. (As a result of NDAA
2011, approximately $866 million was paid in FY 2012.)

As of September 30, 2011, there were approximately 57,000 TERA retirees receiving retired
pay. In FY 2011, TERA retirees were paid approximately $907 million. (As a result of NDAA
2011, approximately $982 million was paid in FY 2011.)

Cost-of-Living Increase
All non-disability retirement, disability retirement, and most survivor annuities are adjusted
annually for inflation. COLAs are automatically scheduled to occur every 12 months, on
December 1, to be reflected in checks issued at the beginning of January.

The “full” COLA, effective December 1, is computed by calculating the percentage increase in
the average CPI from the third quarter of the prior calendar year to the third quarter of the current
calendar year. The increase is based on the Urban Wage Earner and Clerical Worker Consumer
Price Index (CPI-W) and is rounded to the nearest tenth of one percent.

The benefits of retirees (and most survivors) are increased annually with the full COLA, except
for those first entering the armed services on or after August 1, 1986, who elect the $30,000
CSB. Their benefits are increased annually with a partial COLA equal to the full COLA minus
1% (except if the full COLA is less than or equal to 1 percent). A one-time restoral is given to a
partial COLA recipient on the first day of the month after the retiree’s 62nd birthday. At this
time, retired pay (or the survivor benefit, if the retiree is deceased) is increased to the amount
that would have been payable had full COLAs been in effect. Annual partial COLAs continue
after this restoral.
Fund Relationships
Department of Veterans Affairs Benefits
The VA provides compensation for Service-connected and certain non-Service-connected
disabilities. These VA benefits can be in place of or in combination with DoD retired pay, but
through December 31, 2003, were not fully additive. Since VA benefits are exempt from federal
income taxes, it is often to the advantage of a member to elect them. Through calendar year
2003, retired pay earned from the DoD for military service was offset by any payment received
from VA for a VA-rated disability. Beginning with NDAA 2004 (P.L. 108-136), a series of
legislation has been enacted that increasingly reduces or eliminates the offset to military retired
pay due to receipt of VA disability compensation. Members with a combined VA disability
rating of 50% or greater who have at least 20 years of service will have their offset eliminated
under the Concurrent Retirement and Disability Pay (CRDP) program. The CRDP program has



      10   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis

a ten-year phase-in schedule that began in 2004; however, the offset is already fully eliminated
for members whose disabilities are rated total (i.e., 100%) or make the individual unemployable.
Members whose disability meets certain combat-related criteria can elect to receive payments
against the offset under the Combat Related Special Compensation (CRSC) program. Under
CRSC, members are not subject to a phase-in schedule, are not required to have at least 20 years
of service, and are not required to have at least a 50% VA disability rating. Although CRSC
amounts are calculated based on retired pay lost due to offset and are paid from the MRF, CRSC
is not technically considered retired pay. CRSC payments are tax exempt. A member may not
participate in both the CRDP and CRSC programs simultaneously, but may change from one to
the other during an annual “open season.”

VA benefits also overlap DoD survivor benefits through the DIC program. DIC is payable to
survivors of veterans who die from Service-connected causes. Although an SBP annuity must be
reduced by the amount of any DIC benefit, all SBP premiums relating to the reduction in benefits
are returned to the survivor. The 2008 NDAA enacted, and the Family Smoking Prevention and
Tobacco Control Act of 2009 (P.L. 111-31) revised, a temporary Special Survivor Indemnity
Allowance that pays a monthly amount ($50 in FY 2009 grading up to $310 in FY 2017) to
survivors with a DIC offset. The authority for this allowance ends in 2017.

The offset relationship between SBP and DIC has been the subject of litigation in the U.S. Court
of Appeals. As a result of the “Sharp Case” ruling, the SBP benefit of survivors with entitlement
to both DIC and SBP who remarry after age 57 is not reduced by DIC benefits received.
Other Federal Service
For military retirement purposes, no credit is given for other federal service, except for TERA
and where cross-service transferability is allowed. Military service is generally creditable
toward the federal civilian retirement systems if military retired pay is waived. However, a
deposit (equal to a percentage of post-1956 basic pay) must be made to the Civil Service
Retirement and Disability Fund in order to receive credit. Military service is not generally
creditable under both systems (but is for reservists and certain disability retirees). Military
retirees may qualify separately for Civil Service retirement and receive concurrent pay from both
systems.
Retired Pay to Military Compensation
Basic pay is the only element of military compensation upon which non-disability retired pay is
based and entitlement is determined. Basic pay is the principal element of military compensation
that all members receive, but it is not representative of salary levels in the public and private
sectors for comparative purposes. Reasonable comparisons can be made to regular military
compensation (RMC). RMC is the sum of (1) basic pay; (2) the housing allowance, which varies
by grade, location, and dependency status; (3) the subsistence allowance; and, (4) the tax
advantages accruing to allowances because they are not subject to Federal income tax. Basic pay
represents approximately 69% of RMC for all retirement eligible members. For the 20-year
retiree, basic pay is approximately 67% of RMC. Consequently, a member retired with 20-years
of service and entitled to 50% of basic pay only receives 34% of RMC. For a 30-year retiree,
basic pay is approximately 72% of RMC and such member would be entitled to 75% of basic
pay or 54% of RMC. Public Law 109-364 allows members, who retire after January 1, 2007,
with greater than 30 years of service, to retire with entitlements exceeding 75% of basic pay.


      11   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis

These relationships should be considered when military retired pay is compared to compensation
under other retirement systems.

Social Security Benefits
Many military members and their families receive monthly benefits indexed to the CPI from
Social Security. As full participants in the Social Security system, military personnel are in
general entitled to the same benefits and are subject to the same eligibility criteria and rules as
other employees. Details concerning these benefits are covered in other publications.

Beginning in 1946, Congress enacted a series of amendments to the Social Security Act that
extended some benefits to military personnel and their survivors. These “gratuitous” benefits
were reimbursed out of the general fund of the U.S. Treasury. The Servicemen’s and Veterans’
Survivor Benefits Act brought members of the military into the contributory Social Security
system effective January 1, 1957.

For the Old Age, Survivors, and Disability Insurance (OASDI) program, military members must
contribute the employee portion of the OASDI payroll tax, with the federal government
contributing the matching employer contribution. Only the basic pay of a military member
constitutes wages for Social Security purposes. One feature of OASDI unique to military
personnel grants a noncontributory wage credit of (i) $300 for each quarter between 1956 and
1978 in which such personnel received military wages and (ii) up to $1,200 per year after 1977
($100 of credit for each $300 of wages, up to a maximum credit of $1,200). The purpose of this
credit is to take into account elements of compensation, such as quarters and subsistence, not
included in wages for Social Security benefit calculation purposes. Under the 1983 Social
Security amendments, the cost of the additional benefits resulting from the noncontributory wage
credits for past service was met by a lump sum payment from general revenues, while the cost
for future service will be met by payment of combined employer-employee tax on such credits as
the service occurs. Payments for these wage credits ended in 2002.

Members of the military are also required to pay the Hospital Insurance payroll tax, with the
federal government contributing the matching employer contribution. Medicare eligibility
occurs at age 65, or earlier if the employee is disabled.

Significant Changes
During FY 2012 and FY 2011
Changes in the MRF valuation during FY 2012 included:

   1) New economic assumptions due to the Federal Accounting Standards Advisory Board
      (FASAB) financial reporting Statement of Federal Financial Accounting Standards 33
      (SFFAS No. 33), discussed further in Note 9, “Military Retirement Benefit Liabilities”;
   2) Updated reserve model;
   3) Updated survivor rates;
   4) New temporary disability retirement rates; and
   5) Updated normal cost weighting factors.



      12   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis


Items (1) – (5) are all classified as assumption changes in the actuarial valuation. Of the changes
listed above, SFFAS No. 33, which provides standards for selecting discount rate assumptions
and the valuation date for measuring pension liabilities, was the most significant. SFFAS No. 33
requires the use of a yield curve based on marketable Treasury securities to determine the
interest rates used to calculate actuarial liabilities for federal financial statements. Historical
experience is the basis for expectations about future trends in marketable Treasury securities.
The DoD Board of Actuaries approved items (2 – 5) at their July 2012 meeting. Item (1) is
prescribed per standard and therefore the resulting economic assumptions will be different than
those assumed by the DoD Board of Actuaries for funding calculations.

There were no legislative benefit changes during FY 2012 which impacted the valuation. The
reinstatement of TERA, mentioned above, led to an insignificant impact on the valuation.

Changes during FY 2011 included: (1) New economic assumptions due to applying SFFAS No.
33; (2) New retired pay offset factors and adjustments; (3) New mortality improvement factors;
and (4) Miscellaneous modeling refinements. All items (1) – (4) are classified as assumption
changes to the actuarial valuation. Of these, new SFFAS No. 33 economic assumptions (item
(1)) was the most significant. The DoD Board of Actuaries approved assumption items (2) – (4)
at their July 2011 meeting. Item (1) is prescribed per standard and the resulting economic
assumptions will be different than those assumed by the DoD Board of Actuaries for funding
calculations. There were no legislative benefit changes during FY 2011 which impacted the
valuation.
Changes for FY 2013
In the current fiscal climate it is difficult to predict changes for any particular year. Over the
next few years the potential benefit changes with respect to the MRF include:

   1)    Reform of the MRS;
   2)    Expansion of the SSIA;
   3)    Concurrent Receipt/DIC enhancements; and
   4)    Refinements to the Active and Reserve Duty systems

Performance Measures
During FY 2012 and 2011, MRF made monthly disbursements to approximately 2.2 million
retirees and annuitants.

There are many ways to measure the performance of a pension plan. Table 3 depicts a few
common measures, specifically 1) Percent Funded, 2) Asset-to-Annuitant Liability Ratio, and 3)
Effective Fund Yield. The last ten years are shown.




        13   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis

                                 MILITARY RETIREMENT SYSTEM
                                   PERFORMANCE MEASURES
                                            (In %'s)

                                                            Asset-to-
                    As of              Percent              Annuitant                Effective
                   Sept. 30,           Funded             Liability Ratio           Fund Yield
                    2012               29.0%                  49.2%                    2.9%
                    2011                27.3                   46.2                     4.9
                    2010                25.6                   43.2                     3.2
                    2009                23.7                   38.6                     1.0
                    2008                22.0                   35.4                     6.2
                    2007                21.3                   34.2                     4.7
                    2006                21.6                   34.5                     5.9
                    2005                22.2                   35.3                     5.5
                    2004                22.5                   36.9                     5.4
                    2003                24.9                   40.6                     5.5

                    Table 3. Military Retirement System Performance Measures

       NOTES:
       – Percent Funded computed as total assets (from Balance Sheet) to actuarial accrued liability
       – Asset-to-Annuitant Liability Ratio computed as total assets (from Balance Sheet) to present value of
         future benefits for the annuitant population.
       – Effective Fund Yield is the approximate fund yield over the course of the associated fiscal year.
       – It is difficult to find meaningful, objective performance measures of a fund which is invested solely in
         intragovernmental U.S. Treasury securities. Therefore, the above measures should be used with caution
         and cited in the appropriate context.


Projected Long-Term Health of the Fund
The projected long-term health of the MRF is adequate due to the fact that it has three different
sources of funding. The first two sources are appropriated funds:

   1) Annual payments from Treasury to amortize the unfunded liability and pay the normal
      cost of the concurrent receipt benefits; and
   2) Monthly normal cost payments from the Services to pay for the current year’s service
      cost.

The third source of funding is earnings on investments, projected to be an increasing contribution
to the MRF as the earnings on the investments increase due to an increasing fund balance. All
three of these sources can be considered secure sources of funding, backed by the “full faith and
credit” of the U.S. Government.

U.S. Credit Rating Downgrade
On August 5, 2011, Standard & Poor’s (S&P), a Nationally Recognized Statistical Rating
Organization, downgraded the long-term U.S. credit rating by one notch to “AA+” (from the


      14   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis

highest notch of “AAA”). On September 14, 2012, Egan-Jones downgraded the U.S. credit
rating from “AA” to “AA-“; however, the other large credit rating agencies have maintained the
same rating as FY 11. The S&P downgrade was largely due to a lack of confidence in the U.S.
political system. In spite of the downgrade, U.S. Treasury instruments are still considered to be a
“safe haven” for the world’s investment community, as evidenced by their continued low yields.
The “safe haven” distinction is partly a result of the U.S. dollar carrying the status of the world’s
reserve currency, as well as their attractiveness relative to bonds of other nations. The long- and
short-term U.S. credit rating will continue to be evaluated periodically.

Per the FASAB standard (SFFAS No. 33), the MRF is required to set the interest rate assumption
for present value estimates based on historical experience of marketable U.S. Treasury securities.
This means that a financial shock affecting U.S. Treasury yields in a given quarter will be
incorporated in the interest assumption as experience emerges, which is currently over a ten year
period.

Unified Budget of the Federal Government
The Military Retirement Fund was created inside the Unified Budget of the federal government
for the monies of the MRS. All three sources of fund income are intra-governmental transactions
consisting of transfers from one government account to another. The only transactions in a
particular year that directly affect the deficit of the Unified Budget are those that pass in or out of
the government, such as tax collections (“in”) and beneficiary payments (“out”). These intra-
governmental transfers are debits and credits within the federal budget, with no direct effect on
the deficit. Conversely, the purchase of securities by the Fund does increase the national debt,
specifically the portion of the debt held by the government – the portion held by the public does
not change. See Figure 1.




      15   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis


                                          UNIFIED BUDGET
             TAXES



       DOD NORMAL COST                 INTRAGOVERNMENTAL TRANSFER
          PAYMENTS




      TREASURY PAYMENTS                INTRAGOVERNMENTAL TRANSFER


                                                                                     MILITARY
                                                                                    RETIREMENT
                                                                                       FUND

      TREASURY PAYMENTS                INTRAGOVERNMENTAL TRANSFER
        OF INTEREST PLUS
         PAR VALUE AT
            MATURITY




            TREASURY
            SECURITIES                 INTRAGOVERNMENTAL TRANSFER




                                                                                     OUTLAYS
                                          Figure 1. Unified Budget

However, funding does have an effect on the DoD budget. With the normal cost payments
(except for Concurrent Receipt) included in the DoD budget, policymakers now consider the
impact on future retirement costs when they make manpower decisions, which could have a
significant impact on future federal budgets. For example, if a decision were made today to
double the size of the active duty and reserve forces, the DoD budget would automatically have
an immediate increase in retirement obligations. Under the pay-as-you-go system, the retirement
expenses would not necessarily be considered in the initial decision since they would not show
up for 20 years.

The fact that MRF costs are fully recognized in advance provides greater benefit security over
the long term. Also, when there is a retirement fund, the MRS is not as dependent on obtaining
the necessary appropriation from Congress each year in order to pay benefits for that year. This
can provide additional benefit security in the short run. As such, the existence of the Fund
promotes a measure of “psychological security” for military members.

20-Year Projection
Table 4 presents a projection of contributions to and disbursements from the MRF. It includes
the dollar amounts as a percent of payroll. The Fund is projected to remain solvent over the 20-


      16   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
         Management’s Discussion and Analysis

         year projection period. Further, as long as the funding sources continue making the required
         payments to the MRF in a timely fashion, the Fund is projected to remain solvent well beyond
         the 20-year projection horizon.

         The following projections were made for FY 2012:

                 •      Basic pay for FY 2012 was projected to be $63.1 billion.
                 •      Normal cost payments were projected to be $26.3 billion.
                 •      The unfunded liability amortization payment was projected to be $64.8 billion.
                 •      Investment income was projected to be $24.9 billion.
                 •      Fund disbursements for FY 2012 were projected to be $51.7 billion.

                                                   MILITARY RETIREMENT SYSTEM
                                                 PROJECTED FLOW OF PLAN ASSETS
                                             (In Billions of Dollars and as a Proportion of Payroll)

Fiscal        Basic         Normal Cost           Amortization of          Investment                Fund            Fund Balance
Year         Payroll         Payments            Unfunded Liability          Income              Disbursements        End of Year

2013          $63.7        $26.6   (0.418)        $67.7     (1.064)      $28.5    (0.448)       $54.5    (0.856)   $507.4      (7.969)
2014          $65.1        $27.2   (0.418)        $70.3     (1.079)      $32.6    (0.500)       $56.1    (0.861)   $581.4      (8.926)
2015          $66.6        $27.8   (0.418)        $72.9     (1.094)      $37.0    (0.555)       $57.5    (0.863)   $661.6      (9.930)
2016          $68.4        $28.6   (0.418)        $75.6     (1.107)      $41.7    (0.610)       $59.0    (0.864)   $748.5     (10.950)
2017          $70.1        $29.3   (0.418)        $78.5     (1.119)      $46.9    (0.668)       $60.6    (0.864)   $842.5     (12.015)

2018          $72.1        $30.1   (0.417)        $81.4     (1.129)      $52.4    (0.727)       $62.0    (0.860)    $944.5    (13.092)
2019          $74.4        $31.1   (0.417)        $84.5     (1.135)      $58.4    (0.785)       $63.7    (0.857)   $1,054.7   (14.170)
2020          $76.8        $32.1   (0.417)        $87.6     (1.141)      $65.0    (0.846)       $65.5    (0.853)   $1,173.8   (15.282)
2021          $79.3        $33.1   (0.417)        $90.9     (1.146)      $72.0    (0.907)       $67.9    (0.856)   $1,301.9   (16.415)
2022          $82.1        $34.3   (0.417)        $94.3     (1.149)      $79.5    (0.968)       $70.4    (0.857)   $1,439.6   (17.533)

2023          $85.0        $35.5   (0.417)         $97.9    (1.152)       $87.6   (1.031)       $73.1    (0.860)   $1,587.4   (18.680)
2024          $87.9        $36.7   (0.417)        $101.5    (1.155)       $96.3   (1.095)       $75.8    (0.863)   $1,746.1   (19.862)
2025          $90.9        $37.9   (0.417)        $105.4    (1.158)      $105.6   (1.161)       $78.7    (0.865)   $1,916.2   (21.070)
2026          $94.1        $39.2   (0.417)        $109.3    (1.161)      $115.5   (1.228)       $81.6    (0.867)   $2,098.7   (22.299)
2027          $97.4        $40.6   (0.417)         -$6.2    (0.064)      $119.3   (1.225)       $84.6    (0.869)   $2,167.8   (22.260)

2028         $100.8        $42.0   (0.417)        $14.4     (0.143)      $124.5   (1.235)       $88.0    (0.873)   $2,260.7   (22.433)
2029         $104.4        $43.5   (0.417)        $15.0     (0.144)      $129.8   (1.244)       $91.4    (0.876)   $2,357.6   (22.592)
2030         $108.2        $45.1   (0.417)        $15.5     (0.144)      $135.4   (1.251)       $94.6    (0.875)   $2,459.0   (22.733)
2031         $112.2        $46.7   (0.417)        $16.1     (0.144)      $141.2   (1.259)       $97.9    (0.873)   $2,565.1   (22.868)
2032         $116.3        $48.5   (0.417)        $16.7     (0.144)      $147.3   (1.266)       $101.4   (0.872)   $2,676.2   (23.012)

                                    Table 4. Military Retirement System Projected Flow of Plan Assets

         NOTES: - The preceding projections assume a long-term 5.75% interest rate each year.
                - The projections willvary in the short-term depending on the actual economic experience.
                - The table is also presented in the September 30, 2012, ‘Valuation of the Military Retirement System.’
                    Note that the projection is based on FY 2011 MRF methods and assumptions.
                - The above Fund Disbursements do not include the effect of NDAA 2011 (retired pay date change).



                17     Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis


Expected Problems
There are no foreseen major problems with respect to MRF that would require disclosure in the
Management’s Discussion and Analysis.


Investments

                                         Investments as of 9/30/12
                                              ($380.11 billion)

              INTEREST                                                             OVERNIGHTS, 18.68, 
         RECEIVABLE, 3.71,                                                                5%
                 1%                                                                     NOTES, 17.49, 5%
 INFLATION, 63.00, 
       17%                                                                                      BONDS, 13.50, 3%




                                                  TIPS, 263.74, 69%




                                             Figure 2. Investments

Figure 2 depicts the book value (par plus premium/discount less amortization of
premium/discount) of investment holdings as of September 30, 2012

Management Oversight
The Fund receives management oversight from the DoD Investment Board established in
September 2003. The members of the Investment Board are the Director, DFAS; the Deputy
CFO, OUSD(C); and a senior military member, currently the Director, Army Budget. The
Investment Board meets twice each fiscal year to consider investment objectives, policies,



     18   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis

performance, and strategies with the goal of maximizing MRF's investment income. The
Investment Board reviews MRF's law and Department of Treasury guidelines to ensure that
MRF complies with broad policy guidance and public law. At the September 14, 2012 meeting,
the Investment Board approved the FY 2013 investments recommended by the new Investment
Advisory Committee (a group of Military Reservists whose civilian expertise is investing). No
changes were made to the Investment Policy Statement that incorporated all previously approved
strategies into one document. This includes a ladder approach for investments and the “hold to
maturity” policy.

Anticipated Changes between the Expected and Actual Investment Rate of Return
The past decade has seen increased volatility in interest rates and equity markets, increasing
deficits, volatility in the markets with regard to energy prices, elevated states of international
conflict, increasing sovereign debt levels, and slow economic growth. These items have been a
catalyst in the current discussion of implementing strong U.S. fiscal control and monetary policy
among politicians. Active political management of the U.S. debt and annual deficit can create an
opportunity to purchase treasury market securities at higher rates of interest in the future.
Conversely, uneasy equity markets tend to push participants toward government securities
causing downward pressure on interest rates. There has also been a movement among private
sector firms to increase pension plan investments in lower risk securities, which has been driven
in part by an area of modern corporate financial theory known as financial economics. An
investment strategy has been developed to shift toward U.S. Treasury Inflation-Protected
Securities (TIPS) to hedge against any future inflation to maximize the return of MRF over time.

The Fund receives investment income from a variety of U.S. Treasury-based instruments such as
bills, notes, bonds and overnight investment certificates. U.S. Treasury bills are short-term
securities with maturities of less than one year issued at a discount. U.S. Treasury notes are
intermediate securities with maturities of one to ten years. U.S. Treasury bonds are long-term
debt instruments with maturities of greater than ten years. Overnight certificates are interest-
based market securities purchased from the U.S. Treasury that mature the next business day and
accrue interest based on the Federal Reserve Bank of New York survey of Reserve repurchase
agreement rates.

The Fund also invests in TIPS, which are indexed for inflation. TIPS are fixed-rate instruments
designed to protect against inflation and the principal amount is indexed to the CPI by adjusting
the CPI at issuance to the current CPI; as inflation increases, so does the principal amount and
the coupon.




      19   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis

Financial Performance Overview
Financial Data
Table 5, presents comparative financial statement information for the MRF

                                              Military Retirement Fund
                                         Analysis of Financial Statements
                                    For the Years Ended September 30, 2012 and 2011
                                                    ($ in Thousands)

                                                                                                 Difference        %
                   Balance Sheet                               2012                  2011         Increase /     Change
                                                                                                 (Decrease)
Fund Balance with Treasury
 Sufficiency of funds available to cover estimated
   disbursements                                                   $23,014           $370,337      ($347,323)    (93.8%)
Investments
 Intragovernmental Securities plus Accrued Interest           $427,867,449      $371,616,281      $56,251,168     15.1%
Account Receivable, Net amounts, including both inter-
        and intra-governmental
 Continued emphasis placed on collecting these amounts             $67,005           $233,475      ($166,470)    (71.3%)
Other Liabilities
   Custodial Liability due to Treasury                              $1,770             $1,680             $90      5.4%
  Military Retirement Benefit Liabilities
   Change in Prescribed SFFAS No. 33 Assumptions            $1,481,970,006    $1,361,267,842      120,702,164      8.9%
Cumulative Results of Operations
Difference is the increase of the total liability
over total assets, of which Actuarial Liability
increased by $117.0 billion and total assets
increased by $55.7 billion.                                ($1,054,014,500)     ($989,049,609)   ($64,964,891)    (6.6%)
             Statement of Net Costs
Gross Cost of Operations
  - Higher Actuarial Liability in FY 12 due to Change in
    Prescribed SFFAS No. 33 Assumptions                       $169,471,128      $153,446,332      $16,024,796     10.4%
      Statement of Budgetary Resources
Distributed Offsetting Receipts
  - Unfunded liability amortization payment
    (FY 12) from Treasury                                      $64,751,000       $61,404,000        3,347,000      5.5%

                                    Table 5. Analysis of Financial Statements


Assets
Assets of $428.0 billion included in Table 5 and shown in Figure 3, represent amounts that the
MRF owns and manages. Assets increased $55.72 billion, 15%, at the end of FY 2012. This
increase is largely attributable to purchasing new investments of $56.3 billion with funds
received from the U.S. Treasury payments, Service contributions, and interest received. The net
increase in investments is related to expected normal growth to cover unfunded portions of future
military retirement benefits. Funds not needed to pay current benefits are held in separate trust
and special funds and invested in U.S. Treasury securities.



       20   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis

                                                  Total Assets
                                            ($427,957,468 thousand)
        Accounts                                                                          Fund Balance with 
    Receivable, 67,005,                                                                   Treasury, 23,014, 
         0.0157%                                                                              0.0054%




                                                       Investments, 
                                                       427,867,449, 
                                                         99.9790%




                                                 Figure 3. Total Assets
Liabilities
Liabilities of $1.48 trillion included in Table 5 and shown in Figure 4 represent liabilities related
to military retirement pension benefits. The liabilities of the MRF primarily consist of actuarial
liability for future benefit payments. Liabilities increased $120.7 billion, 8.9%, at the end of FY
2012. This increase is largely attributable to the increase in the actuarial liability calculation.

                                                  Total Liabilities 
                                            ($1,481,971,968 thousand)
                                                                                       Other Nonfederal 
    Other Intragovernmental 
                                                                                       Liabilities, 192, 0%
      Liabilities, 1,770, 0%




                                                      Military Retirement and 
                                                           Other Federal 
                                                      Employment Benefits, 
                                                       1,481,970,006, 100%




                                              Figure 4. Total Liabilities




      21      Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis

The MRF is confident in its ability to meet its financial obligations. Of the $1.48 trillion in
liabilities, approximately $371.7 billion (25%) is covered primarily by investments in U.S.
Treasury securities (Figure 5). While the liability presents a negative financial position, the
majority of the unfunded portion will come from annual appropriations external to DoD ensuring
benefits are paid regardless of available assets. The initial unfunded actuarial liability, $529
billion in 1984, is being amortized over 42 years and is expected to be fully funded through U.S.
Treasury contributions by FY 2026. The current investments, the interest received on the
investments, and the amortization of the initial liability will provide sufficient funds to cover the
financial obligations of the MRF.

                                      Funded and Unfunded Liabilities
                                              ($1.48 trillion)




       Liabilities Not                                                              Liabilities Covered 
        Covered by                                                                     by Budgetary 
         Budgetary                                                                      Resources, 
         Resources,                                                                 371,657,464 25%
    1,106,260,446 75%



                                 Figure 5. Funded and Unfunded Liabilities


Management Assurances
Agencies are required to provide certain assurances as to the status and effectiveness of the
internal controls and financial management systems that support the preparation of the financial
statements. In the context of the MRF Management’s Discussion and Analysis, DoD, and not
MRF, represents the legislative definition of an Agency. Beginning with FY 2006, as directed in
Office of Management and Budget (OMB) Circular A-123, Management’s Responsibility for
Internal Control, Appendix A, Internal Control over Financial Reporting, the 24 CFO Act
agencies (including DoD), are required to provide a separate assessment of the effectiveness of
the internal controls over financial reporting as a subset of the overall Federal Managers
Financial Integrity Act (FMFIA) assurance statement.

In FY 2012, MRF management determined that the MRF has effective internal controls to
support effective and efficient programmatic operations and reliable financial reporting. In
FY 2009, the MRF management implemented corrective actions to become substantially
compliant with applicable laws and regulations (FMFIA § 2). The current financial management




      22   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis

system conforms to financial systems requirements as of year-end and is substantially FMFIA
compliant.

The MRF management is responsible for establishing and maintaining effective internal control
and financial management systems that meet the objectives of the FMFIA. The MRF conducted
its assessment of the effectiveness of internal control over the effectiveness and efficiency of
operations and compliance with applicable laws and regulations in accordance with OMB
Circular A-123, Management's Responsibility for Internal Control. Based on the results of this
evaluation, the MRF can provide reasonable assurance that its internal controls over the
effectiveness and efficiency of operations and compliance with applicable laws and regulations
for FY 2012 were operating effectively and no material weaknesses were found in the design or
operation of the internal controls.

In addition, MRF conducted its assessment of the effectiveness of internal control over financial
reporting, which includes safeguarding of assets and compliance with applicable laws and
regulations, in accordance with the requirements of Appendix A of OMB Circular A-123. Based
on the results of this evaluation, the MRF can provide reasonable assurance that its internal
control over financial reporting as of July 31, 2012 was operating effectively and no material
weaknesses were found in the design or operation of the internal control over financial reporting.
Improper Payments Information Act of 2002 (Public Law No. 107-300)
The MRF public accounts receivable, $67.0 million, consists mostly of improper payments to
deceased retirees and survivors. This is less than 0.02% of the total assets and approximately
0.1% of the annual incurred benefit outlays. In comparison, on the FY 2011 Government-Wide
Financial statements, that same figure (as a percent of total assets) was about 4%.

The Improper Payments Information Act of 2002, as implemented by OMB Circular A-123,
Appendix C, Requirements for Effective Measurement and Remediation of Improper Payments,
requires Federal agencies to review all programs and activities annually and identify those that
may be susceptible to significant erroneous payments (i.e., programs with erroneous payments
exceeding both $10 million and 2.5% of program payments). The terms improper and erroneous
are used interchangeably. An improper payment occurs when the funds go to the wrong
recipient, the recipient receives the incorrect amount of funds, or the recipient receives payment
for an ineligible service. Improper payments also include duplicate payments and payments for
services not received.

The MRF’s risk assessments address the effectiveness of internal controls in place to prevent
improper payments (such as prepayment reviews) as well as system weaknesses identified
internally or by outside audit activities. While MRF’s improper payment percentages are
extremely low, numerous pre- and post-payment controls further minimize and eliminate
improper payments.

Payments to deceased retirees continue to be the highest risk for improper payments in military
retired pay. In certain situations, payment to deceased retirees is unavoidable due to payment
cycle dates and the fact that notifying a payroll activity is not likely to be the first action for next-
of-kin at the time of a retiree’s passing. A review of confirmed payments to deceased retirees in
FY 2008 indicated that the Department recovered 96% of the overpayment amounts within 60


      23   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis

days, demonstrating the effectiveness of controls within the retired pay system once a retiree’s
death confirmation is received and processed for final disposition.

The MRF’s control processes to prevent, identify, and reduce overpayments to deceased retirees
include a series of periodic eligibility notifications, early detection data mining efforts, and
partnerships with other Federal and state entities. The MRF takes a proactive approach,
routinely comparing retired and annuity payroll master file databases to Social Security
Administration “deceased” records and periodically comparing records with the Office of
Personnel Management deceased files. “Ad hoc” death match file comparisons are also
conducted with the VA’s cemetery database files and with individual states (e.g., Texas,
California, Florida) with sizable retiree and annuitant populations. Retirees identified as
deceased in these comparisons must validate their continued eligibility, or the accounts are
suspended.

Certifying officer legislation holds certifying and disbursing officers accountable for government
funds. In accordance with section 2773a of title 10, U.S.C., pecuniary liability attaches
automatically when there is a fiscal irregularity, i.e., (1) a physical loss of cash, vouchers,
negotiable instruments, or supporting documents, or (2) an improper payment. Efforts to recover
from a recipient must be undertaken in accordance with the debt collection procedures in
Volume V, Chapters 29 and 30, of the DoD Financial Management Regulation.

Limitations of the Financial Statements
These financial statements have been prepared to report the financial position and results of
operations for the MRF pursuant to the requirements of the Chief Financial Officers Act (CFO)
of 1990. While the statements have been prepared from the books and records of MRF in
accordance with the generally accepted accounting principles for federal entities and formats
prescribed by OMB, the statements are in addition to the financial statements used to monitor
and control budgetary resources that are prepared from the same books and records. These
statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity. Unfunded liabilities reported in the financial statements cannot
be liquidated without the enactment of an appropriation.




      24   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
DoD IG Transmittal of Auditor’s Opinion


                           DoD Transmittal of Auditors’ Opinion




    25   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
                                                                                    2800 Eisenhower Avenue, Suite 100
                                                                                             Alexandria, Virginia 22314

                                                                                                Phone: (703) 739-1091
                                                                                                  Fax: (703) 329-0294




Independent Auditors’ Report

TO: The Audit Committee of the Department of Defense Military Retirement Fund
    The Deputy Under Secretary of Defense for Program Integration, Department of Defense

Introduction
We have audited the balance sheets of the Department of Defense (DoD) Military Retirement
Fund (MRF or the Fund) as of September 30, 2012 and 2011, as well as the related statements of
net cost, changes in net position, and budgetary resources (the financial statements) for the years
then ended. The objective of our audit was to express an opinion on the fair presentation of the
financial statements as of September 30, 2012 and 2011. In connection with our audits, we also
considered the Fund’s internal controls over financial reporting and tested the Fund’s compliance
with certain provisions of applicable laws and regulations that could have a direct and material
effect on its financial statements.

As stated in our opinion of the financial statements, we found that the Fund’s financial
statements as of, and for the years ended, September 30, 2012 and 2011, are presented fairly, in
all material respects, and in conformity with accounting principles generally accepted in the
United States of America.

Our consideration of internal controls would not necessarily disclose all significant deficiencies
in the internal control over financial reporting that might be significant deficiencies under
standards issued by the American Institute of Certified Public Accountants (AICPA) and Office
of Management and Budget (OMB) Bulletin 07-04, Audit Requirements for Federal Financial
Statements. The audit disclosed no instances in which the Fund’s systems did not substantially
comply with the Federal Financial Management Improvement Act (FFMIA) of 1996 § 803(a)
requirements. The results of our tests of compliance with certain provisions of laws and
regulations did not disclose any instances of noncompliance required to be reported herein under
Government Auditing Standards, issued by the Comptroller General of the United States and
OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.

The following sections discuss in more detail our report on the Fund’s financial statements, our
consideration of the internal control over financial reporting, and our tests of the Fund’s
compliance with certain provisions of applicable laws and regulations.
Independent Auditors’ Report on the Financial Statements
We have audited the accompanying balance sheets of the Department of Defense (DoD) MRF as
of September 30, 2012 and 2011, and the related statements of net cost, changes in net position,
and budgetary resources for the years then ended. These financial statements are the




      26   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Independent Auditors’ Report

responsibility of the Fund’s management. Our responsibility is to express an opinion on the
financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States, and the requirements of OMB
Bulletin No. 07-04, Audit Requirements for Federal Financial Statements. Those standards and
the OMB bulletin require that we plan and perform the audit to obtain reasonable assurance
about whether the financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit
procedures that are appropriate in the circumstances, but not for the purpose of expressing an
opinion on the effectiveness of the Fund’s internal control over financial reporting. Accordingly,
we express no such opinion. An audit also includes examining, on a test basis, evidence
supporting the amounts and disclosures in the financial statements. An audit also includes
assessing the accounting principles used and significant estimates made by management, as well
as evaluating the overall financial statement presentation. We believe that our audits provide a
reasonable basis for our opinion.

The MRF is required to invest in Treasury securities. On August 5, 2011, the U.S. credit rating
was downgraded to AA+ (from the highest rating of “AAA”) by a nationally recognized
statistical rating organization. Additionally, on September 14, 2012, Egan-Jones Ratings
Company downgraded the U.S. from AA to AA-; however, the other large rating agencies did
not reduce their ratings. The detailed discussion of this matter is included in Note 4.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of the DoD MRF as of September 30, 2012 and 2011, and its net cost of
operations, changes in net position, and budgetary resources for the years then ended in
conformity with accounting principles generally accepted in the United States of America.

Our audit was conducted for the purpose of forming an opinion on the basic financial statements
taken as a whole. The accompanying “Management’s Discussion & Analysis” is not a required
part of the basic financial statements, but is supplementary information required by accounting
principles generally accepted in the United States of America, OMB Circular A-136, Financial
Reporting Requirements, and the Federal Accounting Standards Advisory Board (FASAB). This
supplementary information is the responsibility of the Fund’s management. We have applied
certain limited procedures, which consisted principally of inquiries of management regarding the
methods of measurement and presentation of the supplementary information. However, such
information has not been subjected to the auditing procedures applied in our audit of the basic
financial statements and, accordingly, we do not express an opinion on it.

In accordance with Government Auditing Standards, we are also issuing our report on our
consideration of the Fund’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, agreements, and other matters.
The purpose of that report is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the
internal control over financial reporting or on compliance. That report is an integral part of an



      27   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Independent Auditors’ Report

audit performed in accordance with Government Auditing Standards, and should be considered
in assessing the results of our audits.
Independent Auditors’ Report on Internal Control over Financial Reporting and on
Compliance and Other Matters Based Upon the Audit Performed in Accordance with
Government Auditing Standards
We have audited the financial statements of the DoD MRF as of and for the years ended
September 30, 2012 and 2011, and have issued our report thereon dated November 6, 2012. We
conducted our audit in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States, and the requirements of OMB
Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.

In planning and performing our audit, we considered the Fund’s internal control over financial
reporting as a basis for designing audit procedures for the purpose of expressing an opinion on
the financial statements, but not for the purpose of expressing an opinion on the effectiveness of
the Fund’s internal control over financial reporting. Accordingly, we do not express an opinion
on the Fund’s internal control over financial reporting.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis.

A material weakness is a deficiency, or a combination of deficiencies, in internal control such
that there is a reasonable possibility that a material misstatement of the entity’s financial
statements will not be prevented, or detected and corrected on a timely basis.

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that
is less severe than a material weakness, yet important enough to merit attention by those charged
with governance.

Our consideration of internal control over financial reporting was for the limited purpose
described in the preceding paragraph and was not designed to identify all deficiencies in internal
control over financial reporting that might be deficiencies, significant deficiencies, or material
weaknesses and therefore, there can be no assurance that all deficiencies, significant deficiencies,
or material weaknesses have been identified. However, as discussed below, we identified certain
deficiencies in internal control that we consider to be significant deficiencies.

We considered the following matters to be significant deficiencies:

1. High 3 and Tower Amendment Considerations. DFAS controls do not verify that retiree
   payments are correctly computed. Specifically, some retiree accounts were incorrectly
   calculated by not applying the Tower Amendment considerations to their High 3 benefit
   payments.

   The Tower Amendment was enacted to ensure a retiree will not receive a lesser amount of
   retired pay than they would have received if they were eligible to retire on a prior date, but


      28   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Independent Auditors’ Report

   did not retire until later. We determined these retiree accounts were eligible under Tower if
   the retirement date was on the first day of a quarter and the retiree had at least 20 years, 1 day
   of service.

   Our review of 66 High 3 method retiree payment accounts determined 13 retirees were
   underpaid every month. In applying the Tower Amendment to the sample of 66 High 3
   accounts, the effect of these errors is an actual underpayment of $389.00 per month and
   $4,668.00 per year. The evaluation of the sample did not identify the need for an adjustment
   to the financial statements.

   The MRF is a high profile fund and these estimated errors could potentially have a
   significant impact to individual retirees’ pay.

   We recommended the following to DFAS-CL Retired & Annuity Pay (R&A Pay):

   a. Request specific guidance from the Office of the Undersecretary of Defense (OUSD) on
      the application of the Tower Amendment to High 3 method retiree accounts.
   b. Coordinate with the Services to ensure their current understanding and provide
      information on appropriate application of the Tower Amendment for all High 3 retirees.
   c. Correct the payment errors specifically identified above prospectively.
   d. Apply the Tower Amendment calculation to the specific retiree accounts identified above
      retroactively and determine the cumulative amount of underpayments, processing
      retroactive pay adjustments, as applicable.
   e. Identify all current High 3 retiree accounts for whom the retirement date was on the first
      day of a quarter and the retiree had at least 20 years and 1 day of service.
           1. Apply the Tower Amendment to the retiree account to determine if the retiree
              would have had a more favorable payment amount if the Tower Amendment was
              used. If the Tower Amendment results in a more favorable payment,
                     i. correct the amount prospectively, and
                    ii. calculate the cumulative amount of underpayments retroactively and
                        process pay adjustments.
   f. Implement controls to identify new High 3 retiree accounts for whom the retirement date
      was on the first day of a quarter and the retiree had at least 20 years and 1 day of service.
            1. Apply the Tower Amendment to the retiree account to determine if the retiree
               would have had a more favorable payment amount if the Tower Amendment was
               used.
            2. Document and maintain the calculation showing whether application of Tower
               Amendment was more favorable to retirement pay.

As of the date of this report, we have not received official management comments regarding this
issue.




      29   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Independent Auditors’ Report


2. Benefit Payment Calculations and HI-36 Calculator Tool. The MRF has partially effective
   controls over Benefit Payments. The Fund’s payment of entitlements is highly automated
   and the control activities over the Benefit Payments cycle are primarily information
   technology (IT) application controls. Review of 111 retiree payment accounts determined
   that eight retirees were incorrectly paid every month. These errors were due to
   miscalculations by either the Service or DFAS-CL.

   The controls in place to validate retiree information, provided by the Services, and proper
   retirement benefit calculations were not effective. In this sample, the net effect of these
   errors is an overall underpayment of $5 (monthly overpayments equaled $18, monthly
   underpayments equaled $23) per month. The evaluation of the sample did not identify the
   need for an adjustment to the financial statements.

   We noted that DFAS-CL has developed some compensating controls to help maintain data
   integrity and proper payments. These controls appear to be partially effective. Specifically,
   the data matching with the military pay system, Social Security Administration, and Veterans
   Affairs data appear to be effective in verifying retired status and ensuring retirement benefits
   are not paid to deceased members. Also, DFAS-CL developed and implemented a HI-36
   Calculator Tool to validate new account payment amounts specifically for the High 3
   payment method.

   As of July 11, 2012, DFAS-CL reported it had fully implemented the High 3 tool that
   calculates retirees’ benefit payments based on the highest three years of salary paid to the
   retiree during their service years. The High 3 tool only applies to new accounts processed
   after July 11, 2012. Thus, the historical accounts will continue to have dollar value errors
   because the High 3 tool is not used retroactively. Acuity believes it would be preferable to
   validate that all High 3 accounts—including historical—are calculated correctly. However,
   the current projected error does not represent a material error and, if the High 3 tool proves to
   be an effective control for all prospective accounts, the risk associated with the increase of
   the projected error is minimal.

   DFAS-CL provided Acuity with the corrected sample documentation for the errors. On
   October 4, 2012, DFAS-CL responded to the formal Notification of Finding and
   Recommendation (NFR) by requesting the prior-year comments be rolled forward. An
   additional sample of High 3 accounts was reviewed at year end to determine if the High 3
   tool is designed and operating effectively.

   In response to DFAS-CL’s management comments, Acuity commends DFAS-CL for its
   implementation of the High 3 tool, which shows a commitment to improve the accuracy
   and validity of payments made to beneficiaries. We selected a supplemental sample of
   those retiree accounts that have a retirement date between July 11, 2012 and September 30,
   2012, to test the design and operating effectiveness of the High 3 tool. Based on the results
   of the sample, we believe that the High 3 tool is designed and operating effectively.
   However, we continue to note errors in High 3 base amounts due to manual input errors
   made by technicians. In addition, we noted instances of the High 3 tool correctly



     30   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Independent Auditors’ Report

   ‘rejecting’ accounts to be manually processed, but documentary evidence of the corrections
   were not provided. We recommend R&A Pay technicians be provided additional training
   in the manual processing of these accounts and that copies of all documentation resulting in
   a change to retiree accounts be archived in RAPID (Retired and Annuity Pay Information
   DRAS) as supporting documentation. Given DFAS-CL’s variety of quality assurance
   reviews, we also recommend that the technicians conducting these reviews, be given
   appropriate training to ensure that manual account processing is reviewed for accuracy.

3. System Authorization and Access Weakness. Review of Defense Retiree Annuitant Pay
   System (DRAS) System Authorization Access Request (SAAR) Forms identified a recurring
   internal control weakness in the maintenance and proper authorization of SAAR Forms.
   Specifically, review of 49 SAAR Forms identified 10 significant errors (20.4%), of which 8
   (16.3%) were remediated during audit. Acuity was unable to resolve discrepancies for 2 user
   accounts (4.1%). Specifically:

       a. No SAAR Form or justification for access was available for 1 user. This user’s
          account had been administratively suspended due to inactivity, and DFAS-CL R&A
          Pay stated it was waiting for 90 days of account inactivity to terminate the account.
       b. The SAAR Form for another newly created user account was not properly signed by
          the user or supervisor.
       c. Additional remediated errors consisted of missing or incomplete SAAR Forms and
          user account termination after determination of improper access or terminated
          employment.

   The error rate related to this year’s audit is higher than in the prior year and this internal
   control weakness has been identified each year since FY 2008 with little evidence of
   improvement in internal controls. Accordingly, we recommend DFAS-CL R&A Pay:

       a. Continue maintaining DRAS SAAR Forms for all users in a central repository.
       b. Conduct a quarterly review of all active DRAS SAAR users, regardless of location or
          position, to ensure appropriate access rights are granted to users and SAAR Forms are
          properly completed with valid signatures and dates. This review should also ensure
          appropriate action is taken to terminate access for those users no longer employed or
          requiring access.

   DFAS-CL concurred with the findings and provided Acuity with a completed SAAR Form
   for both of the remaining exceptions. Additionally, R&A Pay Operations, Quality
   Assurance, Special Reviews Section stated they would implement a centrally controlled
   review process over the creation, archival, and access grants related to SAAR Forms for all
   DRAS users. Further, they revised the Standard Operating Procedure (SOP) accordingly.

   Acuity’s believes R&A Pay’s planned corrective actions will effectively remediate the
   condition once fully implemented.




     31   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Independent Auditors’ Report

4. MRF Ownership Concerns. While the OUSD(C) has oversight of the MRF’s financial
   reporting processes, the Fund does not have a specified Chief Financial Officer (CFO).
   Responsibility for management of the MRF is shared among the following three
   organizations: the Defense Finance and Accounting Service, the Office of the Actuary, and
   the Office of the Under Secretary of Defense Comptroller. Management has not yet assigned
   or appointed a party to be responsible overall for the MRF. To consolidate responsibility for
   an agency’s financial management, the CFO Act requires that “an agency Chief Financial
   Officer shall oversee all financial management activities relating to the programs and
   operations of the agency.” This creates a potential weakness, as no specific function or
   office has total ownership of the Fund. This has been a persistent condition and reported to
   Fund management since FY 2008. Acuity recommends MRF management assign an
   appropriate party overall responsibility for the Fund.

   In prior years, OUSD(C) management stated their organization assumes financial
   management responsibilities for the Fund, while Personnel and Readiness (P&R) performs
   operational functions of the Fund within P&R’s purview. On October 17, 2012, OUSD(C)
   provided the following response, “OUSD(C) FIAR recognizes the issue and we are working
   on a solution.”

   Acuity is concerned this is a long-standing issue that has not received adequate attention of
   senior leadership. We believe the management comments are non-responsive, which raises
   concerns regarding appropriate and timely resolution of this critical issue.

Other internal control deficiencies we did not consider to be significant, either individually or
collectively, are to be reported to management separately in a management letter to be dated
November 30, 2012.

As part of obtaining reasonable assurance about whether the Fund’s financial statements are free
of material misstatement, we performed tests of its compliance with certain provisions of laws,
regulations, contracts, and agreements, noncompliance with which could have a direct and
material effect on the determination of financial statement amounts and certain other laws and
regulations specified in OMB Bulletin No. 07-04. However, providing an opinion on
compliance with those provisions was not an objective of our audit and, accordingly, we do not
express such an opinion. The results of our tests disclosed no instances of noncompliance or
other matters that are required to be reported under Government Auditing Standards and the
requirements of OMB Bulletin No. 07-04.

Other matters of noncompliance with laws and regulations that we do not consider to be
significant, either individually or collectively, are to be reported to management separately in a
management letter to be dated November 30, 2012.
Agency Comments
Throughout the audit as internal control weaknesses were identified, we provided them to
representatives of the Audit Committee and management of the Fund, who then provided us with




      32   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Independent Auditors' Report_

comments, which we incorporated as appropriate. While Acuity evaluated the management
comments, we did not audit management's responses and express no opinion on their comments.
The Audit Committee and the management of the Fund expressed their continuing commitment
to address the deficiencies identified in this report. With the exception of management's
response regarding MRF Ownership Concerns, management's planned corrective actions provide
reasonable assurance the reported conditions will be detected and corrected in the future. Please
refer to page 29 of this report, which states no management comments have been received for the
issue related to the Tower Amendment.



This report on Internal Control over Financial Reporting and on Compliance and Other Matters
is intended solely for the information and use of the Inspector General of the Department of
Defense, the Audit Committee and management of the Fund, other Defense Organizations,
OMB, the Government Accountability Office (GAO), and the United States Congress, and is not
intended to be and should not be used by anyone other than these specified parties.




Acuity Consulting, Inc.

November 6, 2012




      33   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Principal Statements




                                    Principal Statements




    34   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Principal Statements

Consolidated Balance Sheet
                                             Department of Defense
                                           Military Retirement Fund
                                     CONSOLIDATED BALANCE SHEETS
                                       As of September 30, 2012 and 2011


 ($ In Thousands)                                                            2012                   2011
 ASSETS
     Intragovernmental:
        Fund Balance with Treasury (Note 3)                      $               23,014     $        370,337
        Investments (Note 4)                                                427,867,449          371,616,281
        Accounts Receivable (Note 5)                                                  0              186,057
        Total Intragovernmental Assets                           $          427,890,463     $    372,172,675

   Accounts Receivable, Net (Note 5)                                             67,005               47,418
 TOTAL ASSETS                                                    $          427,957,468     $    372,220,093

 LIABILITIES
   Intragovernmental:
       Other Liabilities (Note 7)                                                   1,770              1,680
       Total Intragovernmental Liabilities                       $                  1,770   $          1,680

  Military Retirement Benefit Liabilities (Notes
  6 & 9)                                                                  1,481,970,006         1,361,267,842
  Other Liabilities (Note 7)                                                        192                   180
 TOTAL LIABILITIES                                               $        1,481,971,968     $   1,361,269,702

 NET POSITION
  Cumulative Results of Operations -
  Earmarked Funds                                                       (1,054,014,500)          (989,049,609)
 TOTAL NET POSITION                                              $      (1,054,014,500) $        (989,049,609)

 TOTAL LIABILITIES AND NET POSITION                              $          427,957,468     $    372,220,093


The accompanying notes are an integral part of these statements.
Please see Independent Auditors’ Report on page 26.




      35   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Principal Statements

Consolidated Statements of Net Cost

                                          Department of Defense
                                        Military Retirement Fund
                             CONSOLIDATED STATEMENTS OF NET COST
                             For the Years Ended September 30, 2012 and 2011


 ($ In Thousands)                                                               2012               2011
 Program Costs
    Gross Costs (Note 10)                                             $       92,280,886    $    91,476,157
    (Less: Earned Revenue) (Note 10)                                       (104,506,237)        (105,322,384)
    Net Cost before Losses/(Gains) from Actuarial
       Assumption Changes for Military Retirement
       Benefits                                                              (12,225,351)       (13,846,227)
    Losses/(Gains) from Actuarial Assumption
         Changes for Military Retirement Benefits                             77,190,242         61,970,175
 Net Cost of Operations (Note 13)                                     $       64,964,891    $    48,123,948

The accompanying notes are an integral part of these statements.
Please see Independent Auditors’ Report on page 26.




      36   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Principal Statements

Consolidated Statements of Changes in Net Position


                                     Department of Defense
                                   Military Retirement Fund
                       STATEMENTS OF CHANGES IN NET POSITION
                        For the Years Ended September 30, 2012 and 2011

  ($ In Thousands)                                                           2012              2011
  CUMULATIVE RESULTS OF OPERATIONS
  Beginning Balances                                               $       (989,049,609) $   (940,925,661)
  Net Cost of Operations                                                      64,964,891       48,123,948
  Net Change                                                                (64,964,891)      (48,123,948)
  Cumulative Results of Operations                                      (1,054,014,500)      (989,049,609)
  Net Position (Note 11)                                           $    (1,054,014,500) $    (989,049,609)


The accompanying notes are an integral part of these statements.
Please see Independent Auditors’ Report on page 26.




      37   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Principal Statements

Statements of Budgetary Resources

                                       Department of Defense
                                     Military Retirement Fund
                          STATEMENTS OF BUDGETARY RESOURCES
                          For the Years Ended September 30, 2012 and 2011

  ($ In Thousands)                                                                   2012           2011
  Budgetary Resources (Note 12)
     as adjusted
  Appropriations (discretionary and mandatory)                                      52,495,209     50,997,330
  Total Budgetary Resources                                             $           52,495,209 $   50,997,330

  Status of Budgetary Resources
  Obligations incurred:                                                             52,495,209     50,997,330
    Unobligated balance, end of year
  Total Budgetary Resources                                             $           52,495,209 $   50,997,330

  Change in Obligated Balance:
  Unpaid obligations, brought forward, October 1
  (gross)                                                                             345,337       4,209,938
  Obligated Balance Start of Year (net), before
      adjustments (+/-)                                                             345,337          4,209,938
  Obligated Balance Start of Year (net), as adjusted                                345,337          4,209,938
  Obligations Incurred                                                           52,495,209         50,997,330
  Outlays (gross) (-)                                                           (48,788,449)       (54,861,931)
      Obligated balance, end of year
  Unpaid Obligations, end of year (gross)                                            4,052,097        345,337
  Obligated Balance, end of year                                        $            4,052,097 $      345,337

 Budget Authority and Outlays, Net:
 Budget Authority, gross (discretionary and
    mandatory)                                                                   52,495,209         50,997,330
 Budget Authority, net (discretionary and mandatory)                             52,495,209         50,997,330
 Outlays, gross (discretionary and mandatory)                                    48,788,449         54,861,931
 Outlays, net (discretionary and mandatory)                                      48,788,449         54,861,931
 Distributed offsetting receipts (-)                                            (64,751,000)       (61,404,000)
 Agency Outlays, net (discretionary and mandatory)                      $       (15,962,551) $      (6,542,069)

The accompanying notes are an integral part of these statements.
Please see Independent Auditors’ Report on page 26.




      38   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements


           DoD Military Retirement Fund Notes to the Principal Statements
Note 1. Significant Accounting Policies

A. Basis of Presentation. These financial statements have been prepared to report the financial
position and results of operations for the Military Retirement Fund (MRF), as required by the
Chief Financial Officers Act of 1990, expanded by the Government Management Reform Act of
1994, and other appropriate legislation. The financial statements have been prepared from the
books and records of the MRF in accordance with, and to the extent possible, U.S. generally
accepted accounting principles (USGAAP) promulgated by the Federal Accounting Standards
Advisory Board; the Office of Management and Budget (OMB) Circular No. A-136, Financial
Reporting Requirements; and the Department of Defense (DoD) Financial Management
Regulation. The accompanying financial statements account for all resources for which the MRF
is responsible unless otherwise noted.

B. Mission of the Reporting Entity. The mission of MRF is to accumulate funds to finance, on
an actuarially sound basis, the liabilities of DoD military retirement and survivor benefit
programs. The MRF is a program for the payment of pensions to retired military personnel,
annuities to eligible survivors, and special compensation for certain disabled retirees.

C. Appropriations and Funds. Public Law 98-94, The Defense Authorization Act of 1984,
authorized MRF and provided a permanent, indefinite appropriation. Permanent authority
becomes available based upon standing provisions of law without any further legislative action
by the Congress after transmittal of the budget for each year.

The MRF is a non-revolving trust fund. Trust funds contain receipts and expenditures of funds
held in trust by the Government for use in carrying out specific purposes or programs in
accordance with the terms of the donor, trust agreement, or statute.

The MRF funds are designated as earmarked funds. Earmarked funds are financed by
specifically identified revenues, required by statute to be used for designated activities, benefits,
or purposes, and remain available over time. The MRF is required to separately account for and
report on the receipt, use, and retention of revenues and other financing sources for earmarked
funds.

D. Basis of Accounting. The MRF’s financial management systems meet all full accrual
accounting requirements. The MRF’s accounting systems record transactions based on the U.S.
Standard General Ledger (USSGL). Financial and nonfinancial feeder systems and processes are
updated from legacy systems to collect and report financial information as required by
USGAAP.

The financial statements and supporting trial balances are compiled from the underlying financial
data and trial balances. The underlying data for the MRF is largely derived from budgetary
(obligations, disbursements, and collections) and proprietary transactions (assets and liabilities)
and accruals made for major items such as accounts receivable and pension liabilities. Some of
the trial balances may reflect known abnormal balances resulting largely from business and



      39    Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements

system processes. Disclosures of abnormal balances are made in the applicable footnotes, but
only to the extent that the abnormal balances are evident.

E. Revenues and Other Financing Sources. Using methods and assumptions approved by the
DoD Board of Actuaries, the DoD Office of the Actuary determines the amount of the
contributions made to MRF. The Military Services make a monthly contribution, which is a
percentage of basic pay, to cover accruing costs for currently active military members. The
MRF also receives a U.S. Treasury warrant at the beginning of each fiscal year (1) to amortize
unfunded liability and (2) to cover accruing costs for concurrent receipts (certain beneficiaries
with combat-related injuries who are receiving payments from the Department of Veterans
Affairs [VA]). In addition, interest is earned on investments. Funds from the contributions that
exceed the amounts required to pay current year expenses are invested in long-term securities.
These investments and their associated interest revenues will be used to cover future liabilities of
MRF.

F. Recognition of Expenses. For financial reporting purposes, DoD policy requires the
recognition of benefit expenses in the period incurred. The current financial management
systems for MRF collect and record on full accrual accounting basis for liabilities and expenses
of the fund.

G. Accounting for Intragovernmental Activities. The Treasury Financial Manual, Part 2 -
Chapter 4700, Agency Reporting Requirements for the Financial Report of the United States
Government, provides guidance for reporting and reconciling intragovernmental balances. The
MRF is able to reconcile balances pertaining to investments in federal securities.

The DoD’s proportionate share of public debt and related expenses of the Federal Government is
not included. The Federal Government does not apportion debt and its related costs to federal
agencies. The DoD’s financial statements do not report any public debt, interest, or source of
public financing, whether from issuance of debt or tax revenues.

H. Funds with the U.S. Treasury. The MRF’s monetary resources are maintained in U.S.
Treasury accounts. The disbursing offices of the Defense Finance and Accounting Service
(DFAS) process MRF’s cash collections, disbursements, and adjustments worldwide. Each
disbursing station prepares monthly reports that provide information to the U.S. Treasury on
checks issued, electronic fund transfers, interagency transfers, and deposits.

In addition, DFAS sites submit reports to the U.S. Treasury, by appropriation, on interagency
transfers, collections received, and disbursements issued. The U.S. Treasury records these
transactions to the applicable Fund Balance with Treasury (FBWT) account. The MRF
reconciles monthly with the U.S. Treasury account with no outstanding discrepancies.

The U.S. Treasury allows MRF to be fully invested; therefore FBWT may be zero at various
times during the fiscal year, including the end of a quarter or a fiscal year. Controls are in place
to prevent abnormal balances at the U.S. Treasury.




      40   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements

I. Accounts Receivable. Accounts receivable from other federal entities or from the public
include accounts receivable, claims receivable, and refunds receivable. Allowances for
uncollectible accounts due from the public are based upon an analysis of actual collection
experience by MRF during the previous three years. The DoD does not recognize an allowance
for estimated uncollectible amounts from other federal agencies. Claims against other federal
agencies are to be resolved between the agencies in accordance with dispute resolution
procedures defined in the Intragovernmental Business Rules published in the Treasury Financial
Manual.

J. Investments in U.S. Treasury Securities. The MRF reports investments in U.S. Treasury
securities at cost, net of amortized premiums or discounts (book value). Premiums or discounts
are amortized over the term of the investment using the effective interest rate method. The
MRF’s intent is to hold investments to maturity unless they are needed to finance claims or
otherwise sustain operations. Consequently, there is no provision for unrealized gains or losses
on these securities.

The MRF invests in nonmarketable, market-based U.S. Treasury securities which are issued to
federal agencies by the U. S. Treasury, Bureau of the Public Debt. These securities mirror
marketable securities traded in the Government securities market, but are not publicly traded.
The MRF receives interest semiannually from the U.S. Treasury on the value of these securities.

K. Contingencies and Other Liabilities. The SFFAS No. 5, Accounting for Liabilities of the
Federal Government, as amended by SFFAS No. 12, Recognition of Contingent Liabilities
Arising from Litigation, defines a contingency as an existing condition, situation, or set of
circumstances that involves an uncertainty as to possible gain or loss. The uncertainty will be
resolved when one or more future events occur or fail to occur. The MRF recognizes contingent
liabilities when past events or exchange transactions occur, a future loss is probable, and the loss
amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do
not exist but there is at least a reasonable possibility of incurring a loss or additional losses. The
MRF reports death payment contingencies that result from DoD’s responsibility to cover retiree
benefits not paid by the VA during the month of death.

L. Net Position. Net position consists of cumulative results of operations. Cumulative results
of operations represent the net of expenses, losses, and financing sources (including
appropriations, revenue, and gains) since inception.

M. Undistributed Disbursements and Collections. Undistributed disbursements and collections
represent the difference between disbursements and collections matched at the transaction level
to a specific obligation, payable, or receivable in the source systems and those reported by the
U.S. Treasury. The MRF has no undistributed disbursements or collections.

N. Military Retirement and Other Federal Employment Benefits. The Department applies
SFFAS No. 33, Pensions, Other Retirement Benefits, and Other Postemployment Benefits:
Reporting the Gains and Losses from Changes in Assumptions and Selecting Discount Rates and



      41   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements

Valuation Dates, in selecting the discount rate and valuation date used in estimating actuarial
liabilities. In addition, gains and losses from changes in long-term assumptions used to estimate
the actuarial liability are presented separately on the Statement of Net Cost. As a result of
additional guidance received during FY 2012, the composition of the FY 2011 “Losses/(Gains)
from Actuarial Assumption Changes” balance on the Statement of Net Cost was reclassified to
agree with the FY 2012 presentation. Refer to Note 9, Military Retirement Benefit Liabilities,
and Note 10, Disclosures Related to the Statements of Net Cost, for additional information.

O. Estimates. The preparation of financial statements in conformity with accounting principles
generally accepted in the United States of America requires management to make estimates and
assumptions that affect the reported amounts of assets, liabilities and changes therein, disclosure
of contingent assets and liabilities, and the actuarial present value of accumulated plan benefits at
the date of the financial statements. Actual results could differ from those estimates.

P. Actuarial Information. The DoD MRF financial statements present the unfunded actuarial
liability determined as of the end of the fiscal year based on population information as of the
beginning of the year and updated using accepted actuarial techniques. The “projected benefit
obligation” method is used as required by SFFAS No. 5, Accounting for Liabilities of the
Federal Government.

Q. Significant Events. The Office of Management and Budget (OMB), the Treasury Financial
Management Service, the Treasury Bureau of the Public Debt (BPD), the Office of the Under
Secretary of Defense (Comptroller), and Enterprise Solutions and Standards, DFAS agreed to
budgetary reporting changes related to the purchase of premiums and amortization of premiums
and discounts for Treasury securities. OMB requested these changes be made in order for DoD
reporting to be consistent with the reporting of other Federal agencies.

This change reduced the available funding for the MRF by the premiums purchased, the
amortization of these premiums, and the amortization of the discounts. In the past, budgetary
funding was not affected at the time of purchase for a premium. However, the budgetary funding
was reduced monthly by the amortization of premiums and increased by the amortization of
discounts. Beginning August 1, 2012, the budgetary funding was reduced by premium at time
of purchase. The budgetary funding will be increased by the discount at time of maturity. This
change affects the Statement of Budgetary Resources. See Note 12, Disclosures to the Statement
of Budgetary Resources for more information.

Note 2. Non-Entity Assets

($ In Thousands)                                                        FY 2012          FY 2011

 Accounts Receivable                                           $             1,770   $         1,680
 Total Non-Entity Assets                                                     1,770             1,680

 Total Entity Assets                                           $     427,955,698     $   372,218,413

 Total Assets                                                  $     427,957,468     $   372,220,093




      42   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements

Nonentity assets are assets for which the MRF maintains stewardship accountability and
responsibility to report but are not available for MRF’s operations.

The portion of Nonfederal Assets, Accounts Receivable that represent the amount of interest,
penalties, and administrative charges, are collected by MRF on behalf of the U.S. Treasury.
Once collected, this amount is transferred to the appropriate U.S. Treasury receipt account. This
amount is offset by a corresponding custodial liability for MRF reported in Note 7, Other
Liabilities.

Note 3. Fund Balance With Treasury (FBWT)

($ In Thousands)                                                        FY 2012             FY 2011

 Fund Balance
   Total Trust Fund Balance                                   $               23,014   $       370,337


 Status of Fund Balance with Treasury
    Unobligated Balance-Unavailable                           $         371,657,464    $    368,236,009
    Obligated Balance not yet Disbursed                                   4,052,096             345,337
    NonFBWT Budgetary Accounts                                         (375,686,546)       (368,211,009)
    Total                                                     $              23,014    $        370,337

Fund Balance with Treasury decreased $347.3 million (94%) primarily due to the difference
between the calendar day of the FY 2011 hold back (a weekend day) and the calendar day of the
FY 2011 payments (a week day). In FY 2011, Trust Fund Accounting and Reporting (TFAR)
held back a normally anticipated amount of $25 million, plus an estimate of $4.3 billion for
payments to be made on the next business day (because the first day of October was a weekend
day). The actual amount paid was $3.9 billion, leaving an ending balance of $370 million. In
FY 2012, TFAR only held back the normally anticipated amount of $25 million because the first
day of October was a business day. Once the payments were made, an ending balance of $23
million remained.

The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support
FBWT and is a reconciliation between budgetary and proprietary accounts. It primarily consists
of unobligated and obligated balances. The balances reflect the budgetary authority remaining
for disbursement against current or future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative
amount of budgetary authority that has not been set aside to cover outstanding obligations. The
unavailable balance, which consists primarily of funds that are temporarily precluded from
obligation by law, is invested in U.S. Treasury securities. The unobligated balance for the MRF
is restricted for use by the public law that established the fund and becomes available without
further congressional action.

Obligated Balance not yet Disbursed represents the amount of earned and accrued pension and
annuity payments. The MRF balance represents benefits payable on October 1, 2012.



      43   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements


The MRF NonFBWT Budgetary Accounts balance represents investments in U.S. Treasury
securities that are reflected in the MRF’s budgetary resources, but are not part of the FBWT.
Note 4. Investments

($ In Thousands)                                                     FY 2012


                                                                      Amortized                         Market
                                              Amortization            (Premium)        Investments       Value
                                 Cost           Method                 /Discount           Net         Disclosure
Intragovernmental
  Securities
Nonmarketable,                                   Effective
  Market-Based          $    435,206,453          Interest       $    (11,012,435) $    424,194,018 $ 536,544,625
Subtotal                     435,206,453                                                424,194,018   536,544,625
Accrued Interest               3,673,431                                                  3,673,431     3,673,431
Total Investments       $    438,879,884                         $    (11,012,435) $    427,867,449 $ 540,218,056



($ In Thousands)                                                     FY 2011

                                                                     Amortized                         Market
                                              Amortization           (Premium)         Investments      Value
                                 Cost           Method                /Discount            Net        Disclosure
Intragovernmental
  Securities
Nonmarketable,                                   Effective
  Market-Based          $    376,420,184          Interest       $     (8,209,175) $    368,211,009 $ 432,741,430
Subtotal                     376,420,184                                                368,211,009   432,741,430
Accrued Interest               3,405,272                                                  3,405,272     3,405,272
Total Investments       $    379,825,456                         $     (8,209,175) $    371,616,281 $ 436,146,702


Total Intragovernmental Securities, Net Investments increased $56.3 billion (15%) primarily due
to the MRF purchase of $52.3 billion in long-term securities. The increase is due to normal
growth in the MRF from contributions from the U.S. Treasury and the Military Services net of
benefits paid. The annual investment of these funds has a cumulative effect with an expectation
that invested balances will continue growing to cover future benefits.




      44   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements

The Federal Government does not set aside assets to pay future benefits or other expenditures
associated with earmarked funds. The cash generated from earmarked funds is deposited in the
U.S. Treasury, which uses the cash for general Government purposes. The U.S. Treasury
securities are issued to the earmarked funds as evidence of its receipts and are an asset to the
MRF and a liability to the U.S. Treasury. Since MRF and the U.S. Treasury are both parts of the
Federal Government, these assets and liabilities offset each other from the standpoint of the
Federal Government as a whole. For this reason, they do not represent an asset or a liability in
the U.S. Government-wide financial statements.

The U.S. Treasury securities provide MRF with authority to draw upon the U.S. Treasury to
make future benefit payments or other expenditures. When MRF requires redemption of these
securities to make expenditures, the Government will finance them from accumulated cash
balances, by raising taxes or other receipts, borrowing from the public or repaying less debt, or
curtailing other expenditures. The Federal Government uses the same method to finance all
other expenditures.

The following table displays the cost of the U.S. Treasury Securities.

($ In Thousands)
                                          FY 2012 COST                    FY 2011 COST
                                          ($ in thousands)                ($ in thousands)

 Notes                                        $17,420,938                    $ 21,467,813
 Bonds                                         18,459,672                      11,944,969
 TIPS                                         380,647,988                     328,755,348
 Overnights                                    18,677,855                      14,252,054
 Total Cost                                  $435,206,453                    $376,420,184

The MRF purchases and redeems nonmarketable market-based U.S. Treasury securities that
fluctuate in tandem with the current selling price of the equivalent marketable security on the
open market. The MRF purchases securities with the intent to hold until maturity; therefore,
balances are not adjusted to market value.

At the semiannual meetings, the Department of Defense Investment Board approves the strategy
for the type of securities purchased by MRF. These securities can include U.S. Treasury bills,
notes, bonds, inflation-protected securities, and overnight certificates. The U.S. Treasury bills
are short-term securities with maturities of one year or less and are purchased at a discount. The
U.S. Treasury notes have maturities of at least one year, but not more than 10 years, and are
purchased at either a discount or premium. The U.S. Treasury bonds are long-term securities
with maturities of 10 years or more and are purchased at either a discount or premium. The U.S.
Treasury Inflation-Protected-Securities (TIPS) provide protection against inflation and are
purchased at either a discount or premium. The TIPS principal increases with inflation and
decreases with deflation, as measured by the Consumer Price Index (CPI). When TIPS mature,
the U.S. Treasury pays the adjusted principal or original principal, whichever is greater. The
TIPS amount includes inflation compensation as well as the par value of the securities.
Overnight securities are short-term securities, purchased at face value, that mature the next
business day and earn interest at the daily Federal Reserve repurchase agreement rate.



      45   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements


On August 5, 2011, Standard & Poor’s (S&P), a nationally recognized statistical rating
organization, downgraded the long-term U.S. credit rating to “AA+” (from the highest rating of
“AAA”). On September 14, 2012, Egan-Jones downgraded the U.S. credit rating from “AA” to
“AA-“; however, the other large credit rating agencies have maintained the same rating as FY
11. Acuity Consulting, Inc. evaluated the impact of the credit rating reduction on impairment of
the Fund’s investment or the requirement to recognize a contingency. Acuity found the Fund has
the intent and ability to retain its investments to allow for any anticipated recovery in market
value, which has not decreased as a result of the credit rating downgrade. Please refer to the
Management Discussion and Analysis, Projected Long-Term Health of the Fund, for additional
information.
Note 5. Accounts Receivable

($ In Thousands)                                                                    FY 2012

                                                                         Allowance for
                                               Gross                      Estimated               Net Amount
                                             Amount Due                  Uncollectible                Due
Intragovernmental Receivables              $           0           $               N/A $                     0
With the Public                                   70,100                        (3,095)                 67,005
Total Receivable                           $      70,100           $            (3,095) $               67,005

($ In Thousands)                                                                    FY 2011

                                                                         Allowance for
                                                 Gross                    Estimated               Net Amount
                                               Amount Due                Uncollectible                Due
Intragovernmental Receivables              $         186,058       $               N/A        $      186,058
With the Public                                       49,603                    (2,185)               47,418
Total Receivable                           $         235,661       $            (2,185)       $      233,476

Intragovernmental Receivables decreased by $186.1 million (100%) from the timely receipt of
service contributions at the end of FY 2012.

Nonfederal Accounts Receivable increased $19.6 million (41%) due to recoupment for Special
Separation Benefits (SSB) and disability severance pay. The SSB recoupment occurs if a
member returns to service and subsequently retires. The SSB recoupment had been put on hold
for approximately one and a half years; however, during 3rd Quarter, FY 2011, the hold was
removed. The SSB recoupment is a receivable that does not incur interest, administrative fees,
penalties and fines. Disability severance pay debts relate to payments now made to past retirees
for Post Traumatic Stress Disorder (PTSD). Former recipients of disability severance pay that
now qualify for PTSD benefits must repay some portion of disability severance pay received
previously. The initial population is a group of over 2,000 accounts.

The accounts receivable represent the Military Retirement Fund’s (MRF) claim for payment
from military retirees or their survivors for erroneous amounts previously paid. The MRF only



      46   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements

recognizes an allowance for uncollectible amounts from the public. Claims with other federal
agencies are resolved in accordance with the Intragovernmental Business Rules.

Note 6. Liabilities Not Covered By Budgetary Resources

($ In Thousands)
                                                                       FY 2012                 FY 2011
Nonfederal Liabilities
Military Retirement Benefits Liability (Note 9)                 $    1,106,260,446        $     992,686,495
Other Liabilities                                                              192                      180
Total Nonfederal Liabilities                                    $    1,106,260,638        $     992,686,675
Total Liabilities Not Covered by Budgetary Resources            $    1,106,260,638        $     992,686,675
Total Liabilities Covered by Budgetary Resources                $      375,711,330        $     368,583,027
Total Liabilities                                               $    1,481,971,968        $   1,361,269,702

Total Liabilities Not Covered by Budgetary Resources increased $113.6 billion (11%), primarily
attributable to increases in military retirement benefits of $120.7 billion (see discussion in
Military Retirement Benefits and Other Federal Employment Benefits (Note 9), below) and
premiums on non marketable U.S. Treasury securities of $59.5 billion. This is offset by an
increase of $52.3 billion in investments available to pay benefits and an increase in discount
amortization of $11.2 billion. See Note 4, Investments, and Note 9, Military Retirement and
Other Federal Employment Benefits, for additional information about these changes.  

The Military Retirement Fund Liabilities Not Covered by Budgetary Resources amount
represents actuarial liabilities for pension benefits for which assets are not yet available. Refer to
Note 9, Military Retirement Benefit Liabilities, for additional details and disclosures.

Nonfederal Other Liabilities represent contingent liabilities payable by the Department of
Defense for estimated death payments. These liabilities cover the retiree benefits not paid by the
Department of Veterans Affairs during the month of death. This amount is also reported on
Note 7, Other Liabilities.

Note 7. Other Liabilities

($ In Thousands)                                                        FY 2012               FY 2011

Intragovernmental
Custodial Liabilities                                           $              1,770      $          1,680
Total Intragovernmental Other Liabilities                       $              1,770      $          1,680

Nonfederal
Contingent Liabilities                                                              192               180
Total Nonfederal Other Liabilities                              $                   192   $           180

Total Other Liabilities                                         $              1,962      $          1,860




      47   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements

Intragovernmental Custodial Liabilities are comprised of interest, penalties, and administrative
charges to be collected on behalf of the U.S. Treasury. This amount is also reported as a
nonfederal accounts receivable on Note 2, Non-entity Assets.

Nonfederal Other Liabilities represent contingent liabilities payable by DoD for estimated death
payments. These liabilities cover the retiree benefits not paid by the VA during the month of
death. This amount is also reported on Note 6, Liabilities Not Covered by Budgetary Resources,
and on Note 8, Commitments and Contingencies.

Note 8. Commitments and Contingencies
Currently there are no known contingent liabilities pending legal action.

The MRF has an estimated contingent liability of $192 thousand that is measurable and probable
and, therefore, has been recorded in the accounting records. These liabilities cover the retiree
benefits not paid by the VA during the month of death. This amount is also reported on Note 7,
Other Liabilities.

Note 9. Military Retirement Benefit Liabilities

($ In Thousands)                                                       FY 2012

                                                       Assumed                 (Less: Assets
  Major Program                 Present Value        Interest Rate            Available to Pay          Unfunded
      Activities                 of Benefits              (%)                    Benefits               Liabilities
Military Retirement
 Pension Actuarial
 Liability                  $    1,477,917,910             4.6%          $          (371,657,464)   $ 1,106,260,446
 Other                               4,052,096                                        (4,052,096)                 0
 Total:                     $    1,481,970,006                           $          (375,709,560)   $ 1,106,260,446

($ In Thousands)                                                       FY 2011

                                                       Assumed                 (Less: Assets
  Major Program                 Present Value        Interest Rate            Available to Pay          Unfunded
      Activities                 of Benefits              (%)                    Benefits               Liabilities
Military Retirement
 Pension Actuarial
 Liability                  $    1,360,922,505             4.8%          $          (368,236,009)   $   992,686,496
 Other                                 345,337                                          (345,337)                 0
 Total:                     $    1,361,267,842                           $          (368,581,346)   $   992,686,496


The present value of Military and Retirement and Other Federal Employment Benefits liability
increased $120.7 billion (9%). For further discussion, please refer to Note 15, Other Disclosures.




      48   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements

Information Related to Military Retirement and Other Federal Employment Benefits

The MRF accumulates funds used to pay pensions to retired military personnel and annuities to
their survivors. The Military Retirement System is a single-employer, defined benefit plan.
The schedules above reflect two distinct types of liabilities related to Military Retirement and
Other Federal Employment Benefits. The line entitled “Military Retirement Pension Actuarial
Liability” represents the actuarial liability for future pension benefits not yet paid; i.e., the
present value of future benefits less the present value of future normal costs. The line entitled
“Other” represents retirement benefits due and payable on the first day of the next reporting
period.

These tables also compute "unfunded liabilities." The assets used in this formula are different
than those that appear on the balance sheet. Assets on the balance sheet are discussed in Note 4 -
Investments, and are based on the fully amortized cost of the securities. The above asset figures
represent the assets available to pay benefits, and are based on the par value cost of the
securities. The fact that different asset bases are used in two different parts of the same financial
statements highlights that there is no singular, exact "unfunded liability." For further discussion
on the different asset figures, refer to Note 1, Item 1.Q.

Effective FY 2010, the MRF implemented requirements of SFFAS No. 33 which directs that the
interest rate, underlying inflation rates, and other economic assumptions be consistent with one
another. A change in the interest rate may cause other assumptions to change as well. For the
September 30, 2012, financial statement valuations, the implementation of the SFFAS equivalent
rate required the DoD Office of the Actuary (OACT) to change the long-term inflation and salary
increase assumptions to be consistent with the underlying Treasury spot rates used in the
valuation.

The MRF actuarial liability is adjusted at the end of each fiscal year. The 4th Quarter, FY 2012,
balance represents the September 30, 2012, amount.

Actuarial Cost Method
As dictated by law, the MRF is funded using the Aggregate Entry-Age Normal Cost method.
This is a method whereby projected retirement costs are spread over the projected future salaries
of a new-entrant cohort.

Projected Revenues
The MRF receives projected revenues from three sources: interest earnings on MRF assets,
monthly contributions from the Military Services, and an annual contribution from the U.S.
Treasury. The contribution from the U.S. Treasury paid into the MRF at the beginning of each
fiscal year and represents the amortization of the unfunded liability for service performed before
October 1, 1984, as well as the amortization of subsequent actuarial gains and losses. Starting
October 1, 2004, Public Law 108-136 requires a Treasury contribution for the normal cost
amount for the concurrent receipt provisions under Sections 1413a and 1414 in addition to the
unfunded liability amortization payment. The DoD Board of Actuaries (the Board) approves
methods and assumptions used to determine the amount for the U.S. Treasury contribution, and
the Secretary of Defense directs the Secretary of Treasury to make the payment.


      49   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements


Assumptions
The Board sets the long-term economic assumptions for each valuation performed for funding
purposes. Prior to FY 2010, the same long-term assumptions were used for the financial
statement valuations. The distinction between the two different valuations is discussed further
below.

For the FY 2012 financial statement valuation, the long-term assumptions were 4.6% interest,
2.6% CPI, and 3.0% salary increase. (For the FY 2012 funding valuation, the long-term
assumptions were 5.5% interest, 3.0% CPI, and 3.5% salary increase. Note that the term
‘interest’ refers here to the interest rate used to discount cash flows. The terms ‘interest rate’ and
‘discount rate’ are often used interchangeably in this context.)

For the FY 2011 financial statement valuation, the long-term assumptions were 4.8% interest,
2.5% Consumer Price Index, and 3.3% salary increase. (For the FY 2011 funding valuation, the
long-term assumptions were 5.8% interest, 3.0% CPI, and 3.8% salary increase.)

The difference in the long-term assumptions between funding and financial statement valuations
is attributable to SFFAS No. 33. The standard is discussed further below. Other assumptions
used to calculate the actuarial liabilities, such as mortality and retirement rates, were based on
actual experience. Because of reporting deadlines, the current year actuarial present value of
projected plan benefits for the MRF financial statement is rolled forward from the prior year
valuation results as reported in the OACT report “Valuation of the Military Retirement System”
using accepted actuarial methods. Adjustments are made as necessary to put liabilities on a
financial statement basis.

In the selection of the valuation date, SFFAS No. 33 allows for actuarial liabilities to be rolled
forward from the prior year valuation results. The effects of changes during the year in major
factors such as pay raises and cost of living adjustments have been incorporated in the roll-
forward adjustment. In calculating the FY 2012 “roll-forward” actuarial liability, the following
assumptions were used:

                          Inflation                  Salary                  Interest

Fiscal Year 2012          3.6 % (actual)             1.6 % (actual)            4.8 %
Fiscal Year 2013          1.6 % (estimated)          1.7% (estimated)          4.6 %
Long-Term                 2.6%                       3.0 %                     4.6 %

For purposes of the Fund’s financial reporting, this roll-forward process is applied annually.

Contributions to the MRF are calculated so as to maintain the Fund on an actuarially sound basis.
This means that there will be sufficient funds to make all benefit payments to eligible recipients
each year and that the Fund balance is projected to eventually equal the actuarial liability; i.e., all
unfunded liabilities are liquidated. In order to accomplish this objective, normal costs are
calculated to fully fund the current year projected liability for active duty members and




      50   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements

reservists. In addition, amortization payments are calculated to fund liabilities that were present
at plan inception (initial unfunded liability) and any emerging actuarial gains or losses.

The initial unfunded liability of the program was amortized over a 50-year period through the
FY 2007 payment. At its August 2007 meeting, the Board decided to decrease the period over
which the initial unfunded liability is fully amortized by 8 years. Their decision was made to
ensure that, at a minimum, the amortization payment covered the interest on the unfunded
actuarial liability. Therefore, starting with the FY 2008 payment, the initial unfunded liability is
being amortized over a 42-year period, with the last payment expected to be made October 1,
2025. All subsequent gains and losses experienced by the system are amortized over a 30-year
period. Chapter 74 of Title 10, United States Code (U.S.C.), requires that the Board approve the
methods and assumptions used to (1) compute actuarial costs and liabilities, (2) amortize the
initial unfunded liability, and (3) amortize all actuarial gains and losses. The Board is a Federal
Advisory Committee appointed by the Secretary of Defense.

The SFFAS No. 33, as published on October 14, 2008, by the Federal Accounting Standards
Advisory Board (FASAB), requires the use of a yield curve based on marketable U.S. Treasury
securities to determine the interest rates used to calculate actuarial liabilities for federal financial
statements. Historical experience is the basis for expectations about future trends in marketable
U.S. Treasury securities.

The statement is effective for periods beginning after September 30, 2009, and applies to
information provided in general purpose federal financial statements. It does not affect statutory
or other special-purpose reports, such as pension or Other Retirement Benefit reports. It requires
a minimum of five periodic rates for the yield curve input and consistency in the number of
historical rates used from period to period. It permits the use of a single average interest rate if
the resulting present value is not materially different from what would be obtained using the
yield curve.

OACT annually performs two MRF valuations. The primary one is for funding purposes—this
valuation is governed by Chapter 74 of Title 10 U.S.C. and must use methods and assumptions
approved by the Board. The other is for financial statement purposes and is governed by
FASAB standards. For the September 30, 2012, financial statement valuation, OACT
determined an SFFAS equivalent interest rate of 4.6% by using quarterly zero coupon Treasury
spot rates (a series published by the Office of Thrift Supervision) from June 30, 2002, to March
31, 2012 with an approximation for the March 31, 2012 rates due to discontinuation of the
published series. In the summer of 2012, the Board approved an interest rate of 5.5% for the
September 30, 2012, funding valuation, which differs from the SFFAS equivalent rate by 90
basis points. Using the SFFAS No. 33 long-term economic assumptions increases the MRF
actuarial liability by 7%.

Military Services Contributions

The contributions from the Military Services are the product of basic pay and normal cost
percentages (NCPs) determined in accordance with the methods and assumptions approved by
the Board. Basic pay generally increases each year, and on January 1, 2012, there was a 1.6%



      51   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements

across-the-board basic pay increase. The NCPs for FY 2012 were set by the Board in their July
2010 Board Letter: 34.3% (full-time) and 24.3% (part-time). The NCPs for FY 2013 were set by
the Board in their July 2011 Board Letter: 32.1% (full-time) and 24.4% (part-time). The above
NCPs are based on the Board’s funding valuation, not the financial statement valuation (SFFAS
No. 33), and are calculated without regard to the concurrent receipt provisions of Sections 1413a
and 1414 of Title 10, U.S.C.

Note 10. Disclosures Related to the Statements of Net Cost

($ In Thousands)                                                       FY 2012                       FY 2011

 Gross Costs (Note 9)                                           $       92,280,886            $       91,476,157
 Actuarial Non Assumption Costs                                 $       39,805,163            $       40,489,341
 Other Program Costs                                            $       52,475,723            $       50,986,816
 Less Earned Revenue                                            $     (104,506,237)           $     (105,322,384)
 Net Cost before Losses/(Gains) from Actuarial
 Assumption Changes                                             $       12,225,351            $      13,846,228
 Loss/(Gaines from Actuarial Assumption Changes                 $       77,190,242            $      61,970,175
 Net Cost of Operations                                         $       64,964,891            $      48,123,948


The Net Cost of Operations increase of $16.8 billion (35%) is primarily due to an increase of
$15.2 billion in assumptions, $1.8 billion in normal cost, $2.2 billion in interest cost, and $1.3
billion in benefit payments, offset by $3.1 billion in actuarial losses.

The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the
Federal Government that are supported by appropriations or other means. The intent of the SNC
is to provide gross and net cost information related to the amount of output or outcome for a
given program or organization administered by a responsible reporting entity.

Intragovernmental costs and revenue represent transactions made between two reporting entities
within the Federal Government. Public costs and revenues are exchange transactions made
between the reporting entity and a nonfederal entity.

Intragovernmental earned revenue is comprised primarily of the following:

Intragovernmental Earned Revenues for Program Costs

 ($ in Thousands)                                                                   FY 2012            FY 2011

 1. Military Service Contributions as a Percentage of Base Pay               $       21,863,491 $       20,970,253
 2. Annual Treasury Unfunded Liability Payment                                       64,751,000         61,404,000
 3. Annual Treasury Normal Cost Payment                                               5,376,000          4,950,000
 4. Interest on Investments                                                          12,515,746         17,998,131
 Total                                                                       $      104,506,237 $      105,322,384




      52   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements

Effective FY 2010, MRF implemented requirements of Statement of Federal Financial
Accounting Standards (SFFAS) 33 which directs the interest rate, underlying inflation rates, and
other economic assumptions should be consistent with one another. A change in the interest rate
may cause other assumptions to change as well. For the September 30, 2012, financial statement
valuation, the implementation of the SFFAS equivalent rate required DoD Office of the Actuary
to change the long-term inflation and salary increase assumptions to be consistent with the
underlying Treasury spot rates used in the valuation.

During FY 2011, based on SFFAS No. 33, “Pensions, Other Retirement Benefits, and Other
Postemployment Benefits: Reporting the Gains and Losses from Changes in Assumptions and
Selecting Discount Rates and Valuation Dates”, the Department included all costs associated
with the change in the actuarial liabilities for military retirement in "Losses/(Gains) from
Actuarial Assumption Changes". During FY 2012, the Department of Treasury provided
additional guidance defining the specific actuarial assumptions that should be recorded as
"Losses/(Gains) from Actuarial Assumption Changes". To ensure comparability, the FY 2011
column on the Statement of Net Cost has been updated to reflect the additional guidance. As a
result, there may be inconsistencies between the FY 2011 and the FY 2011 published statements.

Note 11. Disclosures Related to the Statements of Changes in Net Position

There was a difference of $52.5 billion between Appropriations Received on the Statement of
Changes in Net Position (SCNP) and Appropriations on the Statement of Budgetary Resources
(SBR). The MRF records contributions as revenue on the SCNP, while contributions are
recorded as Appropriations on the SBR. This is in accordance with Office of Management and
Budget reporting requirements. Refer to Note 12, Disclosures Related to the Statement of
Budgetary Resources for further information.

Note 12. Disclosures Related to the Statements of Budgetary Resources

The Office of Management and Budget (OMB), the Treasury Financial Management Service, the
Treasury Bureau of the Public Debt (BPD), the Office of the Under Secretary of Defense
(Comptroller), and Enterprise Solutions and Standards, DFAS agreed to budgetary reporting
changes related to the purchase of premiums and amortization of premiums and discounts for
Treasury securities. OMB requested these changes be made in order for DoD reporting to be
consistent with the reporting of other Federal agencies.

This change reduced the available funding for the MRF by the premiums purchased, the
amortization of these premiums, and the amortization of the discounts. In the past, budgetary
funding was not affected at the time of purchase for a premium. However, the budgetary funding
was reduced monthly by the amortization of premiums and increased by the amortization of
discounts. Beginning August 1, 2012, the budgetary funding was reduced by premium at time
of purchase. The budgetary funding will be increased by the discount at time of maturity. This
change affects the Statement of Budgetary Resources. See Note 1, Significant Accounting
Policies.



      53   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements

For FY 2012, the SBR presentation changed to better align with the new SF 133 format.
Information on the SBR should be reconcilable to the budget execution information reported on
the SF 133 and with information reported in the Budget of the United States Government to
ensure the integrity of the numbers presented. The SBR is an agency-wide report, which
aggregates account-level information reported in the SF 133. This change was also made to the
FY 2011 SBR to allow for comparability between the two financial statements.

The MRF reported $52.5 billion of direct obligations that are exempt from apportionment. The
SBR includes intra-entity transactions because the statements are presented as combined.
P.L. 98-94, The Defense Authorization Act of 1984, authorized MRF and provided a permanent,
indefinite appropriation.

The MRF’s unobligated balances of budget authority represent the portion of trust fund receipts
collected in the current fiscal year that exceeds (1) the amount needed to pay benefits or other
valid obligations and (2) the receipts temporarily precluded from obligation by law. The
receipts, however, are assets of MRF and are available for obligation as needed in the future.

There was a difference of $52.5 billion between Appropriations Received on the Statement of
Changes in Net Position (SCNP) and Appropriations on the SBR. The MRF records
contributions as revenue on the SCNP, while contributions are recorded as Appropriations on the
SBR. This is in accordance with Office of Management and Budget reporting requirements.

Note 13. Reconciliation of Net Cost of Operations to Budget

($ In Thousands)                                                             FY 2012            FY 2011

 Resources Used to Finance Activities:
    Budgetary Resources Obligated:
    Obligations incurred                                             $        52,495,209    $   50,997,330
    Less: Offsetting receipts (-)                                            (64,751,000)       (61,404,000)
    Net obligations                                                  $       (12,255,791)   $   (10,406,670)
    Resources that fund expenses recognized in prior period                            0                 (1)
 Total resources used to finance the Net Cost of Operations          $       (12,255,791)   $   (10,406,671)
 Components of the Net Cost of Operations that will not
      Require or Generate Resources in the Current Period:
      Components Requiring or Generating Resources in                        116,995,417        102,459,516
      Future Period – Other
 Components not Requiring or Generating Resources:                   $       116,995,417    $   102,459,516
      Other (+/-)
      Trust Fund Exchange Revenue                                            (39,755,237)       (43,918,384)
      Other                                                                      (19,498)           (10,513)
      Total Components of Net Cost of Operations that will                   (39,774,735)       (43,928,897)
      not Require or Generate Resources
 Total components of Net Cost of Operations that will not            $        77,220,682    $    58,530,619
      Require or Generate Resources in the current period
 Net Cost of Operations                                              $        64,964,891    $    48,123,948




      54   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
 Notes to the Principal Statements

 The following note schedule lines are presented as combined instead of consolidated due to intra-
 agency budgetary transactions not being eliminated: Obligations Incurred; Obligations Net of
 Offsetting Collections and Recoveries; Less: Offsetting Receipts; and Net Obligations.

 Components not Requiring or Generating Resources – Other displays the change in accounts
 receivable since the beginning of both FY 2012 and FY 2011. These amounts represent refunds
 receivable and changes in bad debt for erroneous payments to military retirees or their survivors.

 Note 14. Earmarked Funds

                                                                                        2012                2011
BALANCE SHEET
ASSETS
Fund balance with Treasury                                                     $          23,014     $        370,337
Investments                                                                          427,867,449          371,616,281
Accounts and Interest Receivable                                                          67,005              233,475
Total Assets                                                                   $     427,957,468     $    372,220,093
LIABILITIES and NET POSITION
Military Retirement Benefits and Other Federal Employment
Benefits                                                                       $ 1,481,970,006       $   1,361,267,842
Other Liabilities                                                                        1,962                   1,860
Total Liabilities                                                              $ 1,481,971,968       $   1,361,269,702

Cumulative Results of Operations                                                   (1,054,014,500)        (989,049,609)
Total Liabilities and Net Position                                             $      427,957,468    $     372,220,093

STATEMENT OF NET COST
Program Costs                                                                  $       92,280,886    $     91,476,157
Less Earned Revenue                                                                  (104,506,237)       (105,322,384)
Net Cost before Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits                                              (12,225,351)         (13,846,227)
Losses/(Gains) from Actuarial Assumption Changes
for Military Retirement Benefits                                               $      77,190,242     $     61,970,175
Net Cost of Operations                                                         $      64,964,891     $     48,123,948

STATEMENT OF CHANGES IN NET POSITION
Net Position Beginning of the Period                                           $ (989,049,609)       $    (940,925,661)
Net Cost of Operations                                                                64,964,891           48,123,948
Change in Net Position                                                         $      (64,964,891)   $     (48,123,948)
Net Position End of the Period                                                 $ (1,054,014,500)     $   (989,049,609)

 P. L. 98-94, The Defense Authorization Act of 1984, established the MRF as a pension program
 for the payment of pensions to retired military personnel, annuities to eligible survivors, and
 special compensation for certain disabled retirees. The MRF accumulates funds to finance, on an



       55   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements

actuarially sound basis, liabilities of the DoD retirement program. The MRF receives its funding
as an earmarked trust fund and uses these resources to execute its mission.

The primary financing sources for MRF are (1) monthly Military Service contributions as a
percentage of base pay; (2) an annual warrant from the U.S. Treasury for the unfunded liability
and for the concurrent receipt provisions for certain disabled retirees; and (3) interest earned on
investments. Using methods and assumptions approved by the DoD Board of Actuaries, the
DoD Office of the Actuary calculates the annual payment amounts and percentages. The
financing sources are the result of intragovernmental flows. Contributions in excess of the
projected current year retiree and annuitant benefits are invested. The investments and
associated interest revenue are used to cover future liabilities of MRF.

Note 15. Other Disclosures

FY 2012 Change in the MRF Actuarial Liability

The net pension expense for the change in the actuarial liability from September 30, 2011 to
September 30, 2012 is developed in the following table.

Change in Actuarial Liability

($ In Thousands)                                                                 FY 2012                 FY 2011
Beginning Actuarial Liability                                          $          1,360,922,505      $   1,258,462,989
Plus Expenses
    Normal Cost Liability                                                             30,563,684           28,780,469
    Interest Cost (on Pension Liability)                                              64,807,213           62,587,412
    Plan Amendments                                                                            0                    0
    Experience Losses/(Gains)                                                          (3,202,079)            133,886
    Other Factors                                                                              1                    0
Subtotal: Expenses before Losses/(Gains) from Actuarial
    Assumption Changes                                                                92,168,819           91,501,767
Actuarial Losses/(Gains) due to
    Assumption Changes - Trend                                                                 0                    0
    Assumption Changes – Non-Trend                                                    77,190,242           61,970,175
Subtotal: Losses/(Gains) from Actuarial Assumption Changes                            77,190,242           61,970,175

Total Expenses                                                         $              169,359,061    $    153,471,942
Less Benefit Outlays                                                                  (52,363,656)        (51,012,426)
Total Change in Actuarial Liability                                    $              116,995,405    $    102,459,516
Ending Actuarial Liability                                             $          1,477,917,910      $   1,360,922,505

Each year the actuarial liability is expected to increase with the normal cost, decrease with
benefit outlays, and increase with the interest cost, resulting in an expected increase of $43.0
billion in the actuarial liability in FY 2012.


        56   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements


The September 30, 2012, actuarial liability includes changes due to assumptions and experience.
The new assumptions include updates to the reserve valuation model, survivor rates, temporary
disability retirement rates, normal cost weighting factors, and a lower single equivalent interest
rate under SFFAS No. 33 of 4.6%. The net effect of these new assumptions is an increase in the
September 30, 2012, actuarial liability of $77.2 billion ($58.7 billion of this increase is due to the
lower SFFAS No. 33 interest rate and associated changes in the long-term salary increase and
inflation assumptions, $11.6 billion is due to the updated reserve valuation model, $8.0 billion is
due to the updated survivor rates, -$1.1 billion is due to updated temporary disability retirement
rates, and -$0.1 billion is due to updated normal cost weighting factors). The change in the
actuarial liability due to the net experience gain of $3.2 billion reflects the new population on
which the September 30, 2012, actuarial liability is based, as well as other economic experience
being different from that assumed (-$8.2 billion due to a lower than expected cost of living
adjustment and across-the-board salary increase for January 2013, which was offset by $3.4
billion from new population data and $1.6 billion due to estimated liability for post-9/11
severances becoming disability retirees as a result of the Physical Disability Board of Review).

Note 16. Subsequent Event
During the FY 2012 audit of Military Retirement Fund, the auditors identified a potential error in
computing the retiree pay subject to the Tower Amendment. As of the date of publication,
research is still pending. No material events or transactions have occurred subsequent to
September 30, 2012, through November 6, 2012, the date when the financial statements were
available to be issued, that have not been properly recorded in the financial statements or
disclosed in the notes. Also, there have been no changes to internal control subsequent to
September 30, 2012, or other factors that might significantly affect the effectiveness of internal
control.




      57   Fiscal Year 2012 Military Retirement Fund Audited Financial Statements
